  U.S. Department of Education
Office of Inspector General




Semiannual Report
   to Congress
           No. 37

April 1, 1998 C   September 30, 1998
                                                            October 30, 1998


Honorable Richard W. Riley
Secretary of Education
Washington, DC 20202


Dear Mr. Secretary:

I am pleased to submit this Semiannual Report on the activities of the Department's
Office of Inspector General (OIG) for the six-month period ending September 30, 1998.
 Submission of this report is in accordance with section 5 of the Inspector General Act
of 1978 (Public Law 95-452, as amended). The Act requires that you transmit this
report within thirty days to the appropriate Congressional committees and
subcommittees, along with any comments you may wish to make.
Our efforts this period continued to advance both OIG=s and the Department=s mis-sion
and goals, through a carefully designed program of audits, investigations and reviews
intended to help managers administer their programs and carry out their over-sight
responsibilities more efficiently, effectively and economically. We continue to work
with Department managers to help them resolve financial and systems problems, and
have issued a number of audit reports and action memorandums to assist them in this
regard.

I look forward to continuing to work with you and Department managers as we seek
to ensure the efficiency, effectiveness and integrity of Education Department programs
and operations.


                                        Sincerely,



                                        John P. Higgins, Jr.
                                        Acting Inspector General
                                                          CONTENTS


0   Letter to the Secretary

0   Inspector General's Message

0   Executive Summary .............................................................................................. 1

0   P.L. 95-452 Reporting Requirements ................................................................... 11

0   ABSTRACT 1: Significant Audits and Audit-related Activities ............................12

0   ABSTRACT 2: Signifi cant Prosecutive Actions Resulting
                    from OIG Investigations .......................................................23

0   Statistical Tables
    0   Recommendations Described in Previous Semiannual Reports on Which
            Corrective Action Has Not Been Completed .........................................................................................41

    0   ED/OIG Reports on Education Department Programs and Activities .........................................................43

    0   Inspector General Issued Reports with Questioned Costs ............................................................................46

    0   Inspector General Issued Reports with Recommendations for
            Better Use of Funds................................................................................................................................47

    0   Unresolved Reports Issued Prior to April 1, 1998 .......................................................................................48

    0   Statistical Profile ............................................................................................................................................50
                                   Inspector General's
                                Message to Congress
During this semiannual period, the Office of Inspector General (OIG) concentrated major
resources in the areas of information system technology, financial systems and controls, and
postsecondary education. Working cooperatively with Department managers, our work has been
centered on “front-end” controls that should assist the Department in administering its pro-
grams and leave them less vulnerable to fraud, waste, and abuse. In the recent reauthorization
of the Higher Education Act, a number of our recommendations were enacted into law. One
enacted recommendation, to require a match of student income reported on applications for
financial aid to income reported to the Internal Revenue Service, should save the federal govern-
ment over $100 million per year. In the upcoming period we will be issuing a perspectives paper
with our recommendations for reauthorization of the Elementary and Secondary Education Act.
Our investigative program, focusing on institutional fraud schemes, continues to result in major
recoveries. During this reporting period the government collected $30 million, a figure compar-
able to our annual budget.
Although the Department has made progress on program and systems improvements, major
challenges remain. We plan to continue conducting work to assist the Department in these
areas.

♦    The Department has had longstanding problems in its financial and accounting systems. A
     financial statement audit was to have been completed by March 1999. However, the
     Department has experienced difficulty with implementation of its new central automated
     processing system, EDCAPS, and has indicated it will not be ready for audit until February
     1999. Therefore, we do not expect a full scope audit to be completed until August. In
     addition, the Department’s Grant and Administrative Payment System faces a critical time
     in attempting to improve functionality, customer service, and especially data and access
     security while processing an increased volume of transactions.

♦    The Department has made considerable progress in meeting the Y2K requirements and
     expects to meet OMB milestones for making its systems compliant. However, the critical
     challenge remaining is to ensure that the data systems of its data exchange partners are
     also Y2K compliant and that there are adequate contingency plans to address Y2K
     problems at both the Department and the data partner level.

♦    Under the recently reauthorized Higher Education Act, the Department must convert the
     Office of Student Financial Assistance into a performance-based organization (PBO). The
     new PBO will be faced with the continuing task of integrating its data systems and improv-
     ing the management and oversight of student financial assistance programs.

♦    Successful implementation of the Results Act requires that the Department have data
     systems that are accurate and reliable. The Department must complete its efforts to
     ensure that the underlying performance data required for the Results Act is accurate and
     reliable.

We look forward to working with the Congress and the Department in these and other areas to
help make the financial and systems improvements that will support the efficient and effective
delivery of federal education programs.




                                     John P. Higgins, Jr.
                                     Acting Inspector General
                              EXECUTIVE SUMMARY

During this semiannual period, the Office of Inspector General (OIG) concentrated major resources in the
areas of information system technology, financial systems and controls, and postsecondary education.
Our work has centered on “up-front” controls that should assist the Department of Education (ED) in
administering its programs and leave ED less vulner-able to fraud, waste, and abuse.
The OIG continued to focus its investigative resources on complex investigations of insti-tutions,
including postsecondary schools, lenders, and guaranty agencies. Significant investi-gative efforts have
identified fraud committed by student financial aid consultants, students, and individuals falsely claiming
enrollment at foreign schools.
Highlights of our efforts follow.


                                    — INFORMATION SYSTEMS —
Information Technology (IT) System Reviews
As a result of our implementation-readiness reviews of the Department’s Grants Adminis-tration and
Payment System (GAPS), a core component of the Department’s new Central Automated Processing
System (EDCAPS), we continued focusing our efforts on reviewing GAPS. This period we issued a
security audit and several alternative products on GAPS.

Assessment of GAPS                                      ment resulted in a number of technical and
A series of reports or action memos were is-sued        procedural recommendations for the en-
to provide the Department with an on-going              hancement of GAPS security.
assessment of GAPS. Specific rec-ommendations           OCFO/CIO officials generally agreed with the
were made to enhance sys-tem performance and            intent of the recommendations and ex-pressed a
security                                                strong interest in working closely with our
                                                        review team to reach an agreeable resolution to
Review of GAPS security                                 correcting the underlying ex-posures.
Our assessment of the overall security sur-
rounding the GAPS production environ-
For additional information on these products, see Abstract 1, “Significant Audits and Audit-related
Activities.

In addition to the products discussed above, we have other reviews in progress in a number of areas.
These include reviewing the Department’s loan origination and consolidation system, assessing the
system development process for the Department’s Project EASI (Easy Access for Students &
Institutions), and assessing the Postsecondary Education Participants System.
Year 2000 Testimony
The Acting Inspector General (IG) testified before the House Appropriations Committee, Subcommittee
on Labor, Health and Human Services, Education, and Related Agencies on the Department’s Year 2000
compliance readiness. He was part of a panel of Inspectors General for the agencies under the jurisdiction
of the Subcommittee who had been asked to address their agencies' Year 2000 readiness.

The Department’s Year 2000 efforts have not              who chairs the Department's Y2K Steering
kept pace with government milestones                     Committee, and that a high-level official in the
                                                         Office of the Chief Financial and Chief
He testified about a recent OIG audit re-port,
which concluded that, despite recent efforts and         Information Officer was assigned to lead the
strides taken by the Depart-ment, its overall Year       project He stated that the OIG will con-tinue to
                                                         monitor the Department’s progress and report our
2000 (Y2K) efforts had not kept pace with
government-wide milestone dates established by           findings and recommen-dations to the Y2K
the Office of Management and Budget. He                  Steering Committe
reported that the Department’s Y2K efforts had
                                                         Y2K projects in progress
suffered from a lack of continuity in the
leadership of the project and a late start in            The OIG currently has three Y2K audit ef-forts
developing a comprehensive Y2K plan for the as-          underway. First, OIG is conducting a review of
sessment, renovation and testing of mission-             the estimated renovation costs re-ported to OMB
critical systems. In addition, the Depart-ment           in the Department’s quar-terly status reports.
did not have a complete inventory of which               Second, OIG is re-viewing the independent
mission-critical systems were com-pliant.                verfication and va-lidation process for the
                                                         Department’s criti-cal systems. Third, OIG is
He indicated that the Department’s Y2K project
                                                         conducting au-dits at guaranty agencies
was receiving senior management at-tention from          participating in the Federal Family Education
the Acting Deputy Secretary,                             Loan Program to determine their readiness for the
                                                         Year 2000.

Since the testimony, the Department has made significant progress in addressing the issues raised in the
audit report. In addition, the recently passed Higher Education Act Amend-ments of 1998 mandate
continuing OIG review of the Department's Y2K activities.


                      — FINANCIAL REPORTING AND CONTROLS —
Financial Statement Audits
 —    FY 1997 annual financial statements
The Department of Education received an unqualified opinion on its FY 1997 annual finan-cial
statements. This is the first time management has reached that goal on a Department-wide basis.




                                                     2
Sufficient evidence presented to support opinion           Significant problems remain
In FYs 1996 and 1995, the Department was                   Although receiving an unqualified opinion is a
unable to provide sufficient evidence to support           significant milestone for the Depart-ment, the
its estimate of liabilities, allowances and costs of       opinion and the reports on inter-nal controls and
the loan programs, which must                              on compliance with laws and regulations clearly
be accounted for in accordance with State-ments            indicate    continued     problems    with    the
of Federal Financial Accounting Standards. After           Department’s oversight and management. There
months of work by both management and the                  were four material weaknesses, three reportable
auditors, sufficient ev-idence was obtained,               conditions and three instances of non-compliance
validated, and ana-lyzed to support an unqualified         reported. (see Abstract 1, “Significant Audits
opinion on the FY 1997 annual financial                    and Audit-related Activities”).
statements.                                                .

 —    FY 1998 financial statements
In our last Semiannual Report, we committed to issuing financial statement audit reports no later than
March 1, as statutorily mandated. However, the Department’s Chief Financial Officer informed us that
the accounting books and records would not be ready for audit until February 1999. As a result, we have
agreed to delay the start of the audit until that time. Therefore, we would not expect a full-scope audit to
be completed until August 1999.


                               — COMPLEX INVESTIGATIONS —
Over the last several years, the OIG has increasingly focused its investigative resources on the pursuit of
complex, resource-intensive financial fraud investigations involving postsecondary institutions, lenders,
and guaranty agencies. This is the area in which we believe our en-forcement efforts are having the most
impact in combating fraud in the Department’s student aid programs.
Some significant results in the areas of due diligence fraud, consultant fraud, and the Foreign Schools
Project follow. Highlights of specific investigative cases resulting in prosecutive ac-tions this reporting
period may be found in Abstract 2, “Significant Prosecutive Actions Resulting from OIG Investigations.”

Due diligence fraud
The U.S. Department of Education guaranteed over $30 billion in Federal Family Education Loan
Program (FFELP) funds in 1998. Department regulations mandate that the owners/ servicers of FFELP
portfolios must meet specific due diligence requirements to maintain the government’s guarantee. These
requirements include mailing letters to borrowers and making telephone contacts/attempts with them
within specific time frames.

The OIG has conducted several major investigations of due diligence fraud. Most recently, a criminal
conviction and civil settlement were obtained in the investigation of Cybernetics and Systems, Inc. (CSI),
a subsidiary of CSX Corporation, which acted as a servicer for loan port-folios reinsured by the federal
government. As part of the resolution of this investigation, CSI paid $28 million to the United States this
period as well as a $2 million criminal fine. Over the past several years, restitution and fines in excess of
$55 million have been ordered in our investigations of lenders and student loan servicers.

Common reasons and methods                                 due diligence was in part motivated by
                                                           management’s desire to avoid the loss of
In several due diligence fraud investigations, at          guarantee, loss of fees and/or the occurrence of
least one mid-level or higher management official          contractual penalties. Many of the institutions
was involved in the scheme to fraud-ulently
                                                           also did not maintain suf-ficient staffing levels to
retain the federal guarantee. The falsification of
                                                           meet the workload and failed to invest in updated

                                                       3
computer technology.        When due diligence          ♦   Creation of fictitious telephone logs
violations were identified, management typically
                                                        ♦   Insufficient length of telephone calls
re-sponded by underplaying or explaining away
the magnitude of the problem.              These        ♦   Back dating of letters and contracts
management decisions led to unmanageable
                                                        ♦   Forgery of student signatures
workloads, which created incentives for low-er-
level employees to “cut corners” with re-spect to       ♦   Exaggerated collection activity by a select
the due diligence requirements.                             group
Through our completed investigations, the OIG           Proactive/prevention work
has identified common methods of due diligence
falsification:                                          The OIG has been working to identify as well as
                                                        prevent additional instances of fraudulent due
                                                        diligence. OIG staff have conducted briefings on
                                                        due diligence fraud for the American Institute of
                                                        Certified Pub-lic Accountants, the Alliance of
                                                        Loan Ser-vicers, and the National Council on
                                                        Higher Education Loan Programs, and have parti-
                                                        cipated in training workshops for secondary
                                                        markets. Additionally, our office is prepar-ing a
                                                        Dear Colleague Letter for distribution to all of the
                                                        guaranty agencies, servicers and lenders on this
                                                        issue.

Student Financial Assistance (SFA) Marketing Company/Consultant Fraud
We are conducting a significant number of criminal investigations targeting individual con-sultants and/or
companies marketing SFA guidance and application preparation to mostly middle and upper-income
students and their parents.
In many instances these students, because of their income level, are not eligible for federal loan and grant
programs. Typically, for a fee, the consultants prepare and submit to the Department false Free
Applications for Federal Student Aid (FAFSAs) on behalf of their clients. To circumvent detection of the
fraudulent FAFSAs, the consultants also prepare false income tax returns for submission to the students′
schools of choice for verification purposes.
To date, our investigations have included FAFSAs submitted via the Web, FAFSA Express and the
traditional paper FAFSAs. Accordingly, as the Department moves toward eliminat-ing the paper FAFSA,
we have submitted written concerns and recommendations to the Department regarding the
implementation of legally acceptable and enforceable student and parental electronic/digital signatures for
FAFSAs.




                                                    4
Major fraud cases involving                               Office strongly supported the recently en-acted
student financial aid consultants                         legislation (which passed shortly after the end of
                                                          the period covered by this re-port) to allow for the
We are presently involved in ten major fraud
                                                          matching of applicant income data with Internal
cases involving schemes by student financial aid
                                                          Revenue      Service    records.         Successful
consultants. To date, several consultants have
                                                          implementation of this cost-effective fix will
been the subjects of fed-eral indictments. In one
                                                          require cooperation be-tween this Department and
case, an individual self-employed as a student
                                                          the Department of the Treasury.
financial aid con-sultant assisted approximately
700 clients in attempting to defraud the Pell Grant
                                                          Prosecution methods vary
pro-gram by using various falsified financial
documents. In another case, a person who owned            In conjunction with the Department of Jus-tice,
financial aid consultant businesses in Michigan           we have been using a variety of prose-cutive
and Alabama charged clients a fee between $275            methods to address this fraudulent activity.
and $350 for assistance in supplying universities         Typically, the individual consult-ants are
and the Department of Education with false                criminally prosecuted, sentenced to periods of
income information on behalf of her more than             federal incarceration, and fined. To date, in
300 clients. Investigation has determined that            excess of 500 of the consultants’ clients have
false doc-uments prepared by this consultant              been successfully sued under the federal
alone resulted in the disbursement of more than           Affirmative Civil Enforcement and referred to the
$1.7 million in Pell and Supplemental Edu-                federal Pre-Trial Diver-sion program. In the next
cational Opportunity Grant funds.                         reporting period, we expect a number of clients in
                                                          the mid-west to be criminally prosecuted as well,
Systemic weaknesses continue                              in an effort to increase the deterrent value of these
                                                          cases.
Based on the case examples cited in the pre-
ceding paragraphs and other ongoing case-work,            The use of these prosecutive options has resulted
we believe the problems surrounding student               in substantial monetary recoveries totaling more
financial aid entrepreneurs are more extensive            than $3.5 million. These recoveries include both
than is readily apparent. In fact, we opened seven        the federal educa-tion dollars illegally obtained
cases involving these indi-viduals this reporting         by the clients, and the heavy monetary penalties
period. The systemic program weaknesses that              assessed as a deterrent.
facilitate this fraudulent     activity    remain
extensive. Our

Foreign School Project
The OIG has assembled a team of special agents for the purpose of carrying out a proactive investigative
initiative designed to identify FFELP borrowers who defraud the program by falsely claiming attendance
at foreign schools. The purposes of this initiative are to identify systemic weaknesses; to identify and
prosecute individual recipient fraud cases; to identify problem foreign schools and refer them to
Department management officials for appropriate administrative action; and to recover funds disbursed to
ineligible borrowers.
We made written recommendations to Department officials on ways to reduce fraud and abuse in the
foreign school arena. We recently received a response to our recommendations and we are currently
evaluating the response.




                                                      5
Increase in foreign-school attendance by                 Statutory, regulatory and programmatic
FFELP borrowers                                          deficiencies
Through analysis of available data, we ob-served         In conjunction with our investigative eff-orts, we
an increasing number of individuals obtaining            have identified serious statutory, regulatory and
FFELP loans by claiming atten-dance at foreign           programmatic deficiencies relative to FFELP
schools.    This number has increased each               borrowing at foreign in-stitutions. These
academic year between 1993, when the number of           deficiencies expose the FFELP to abuse and
students was 4,595, and academic year 1995,              fraud.         The     OIG       has     identified
when the number of students climbed to 11,967.           deficiencies/weaknesses in the fol-lowing areas:
                                                         u    verification of enrollment;
Loans to students attending foreign schools
increase significantly                                   u    disbursement process;
The total loan amounts for students claim-ing            u    determination of borrowers' eligibility;
attendance at foreign schools rose as well,
jumping to more than $200 million in academic            u    standards of administrative and finan-cial
year 1997 and remaining at about that level in FY             capability on the part of foreign schools;
1998. The largest loan dollar volume is currently        u    oversight of foreign schools.
concentrated in the nations of Dominica, Grenada
and Mex-ico. In the Dominican Republic, the              In April 1997, we submitted two reports to
vol-ume of student aid has increased steadily            Department program officials detailing our
since academic year 1993, when it was $2.8               findings and making program improvement
million. By academic year 1998, the total                recommendations. We believe that many of our
exceeded $18.5 million.                                  cases could have been prevented if pre-
                                                         disbursement enrollment verification had been
                                                         conducted.        The number of on-going
                                                         investigations involving these stu-dents continues
                                                         to grow.


                            —   OTHER SIGNIFICANT ACTIVITIES                 —

Department Operations
 — Government Performance and Results Act
The Government Performance and Results Act of 1993 (GPRA, or the Results Act) is the centerpiece of a
statutory framework that Congress put in place to improve federal man-agement and provide a greater
focus on results. GPRA requires that federal agencies prepare a five-year strategic plan and annual
performance plans beginning with fiscal year 1999. The act also requires that federal agencies prepare
performance reports. The first performance report on FY 1999 is due in March 2000.
Our audit of the status of the Department’s implementation of GPRA (see Appendix 1, “Significant
Audits and Audit-related Activities”) found that, as required by the Results Act, ED has prepared a
strategic plan and an annual performance plan for fiscal year 1999 and has designed a framework for the
verification and validation of its performance indicators. How-ver, our audit identified issues similar to
those raised recently by the General Accounting Office. ED's strategic plan and annual performance plan
(which were rated by Congressional evaluators above most of the federal agencies' plans), and the
activities ED has done and plans to do, can provide the Department with the foundation to meet the many
challenges in moving toward a results-oriented organization.
Our review identified the need to establish a results-oriented culture; the importance of sen-ior leadership
involvement; the challenging nature of measuring the federal contribution; and the importance of the
information used by Congress and the Department in decision-making.



                                                     6
 —    Management reviews
This period we completed management reviews on the Department’s International Merchant Purchase
Authorization Card process, its management of the Freedom of Information Act op-erations, and its
Common Support Expense Fund. Our reviews resulted in several manage-ment recommendations. (See
Abstract 1, “Significant Audits and Audit-related Activities.”)

Postsecondary Education
 —    Direct Loan school monitoring
Last year we issued our summary report, ”Administration of the William D. Ford Direct Loan Program
by Schools.” The report summarized deficiencies at 16 schools participating in the Direct Loan program
and identified potential management weaknesses in monitoring the program. This period we issued our
follow-up report, which examined the Department’s monitoring of the schools participating in the Direct
Loan program. (See Abstract 1, "Significant Audits and Audit-related Activities.")
Our review determined that sufficient data were not available for effective school monitor-ing, on-site
monitoring of schools was not coordinated between different Departmental com-ponents and was very
limited, and the elimination of loan-level data matching between schools and the Department may cause
future data integrity problems.

 —    Institutional participation and oversight
The Institutional Participation and Oversight Service (IPOS) is responsible for all gate-keeping, oversight,
monitoring and audit resolution functions for all institutions participating in the student financial
assistance programs. IPOS began a major reorganization in late 1996, moving toward a team-based case
management system.
Last period we initiated a management review to assess the allocation of resources, proper training and
technical capabilities of staff to perform new functions, consistency of operat-ions between case
management teams, and effective monitoring of schools. To complete our management assessment, we
are performing separate performance audits of the key IPOS functional operations.




                                                     7
Reviews of IPOS functions                                   documentation could not be located to support the
                                                            recertification decisions.   Docu-mentation of
During this period we completed our audit of the
                                                            supervisory reviews was also not performed.
recertification of all institutions par-ticipating in
the SFA programs, mandated to be completed                  In future periods we will be reporting on other
within five years of en-actment of the Higher               functional areas in IPOS as the work is completed
Education Act Am-endments of 1992.                We        including, provisional certi-fication, the risk-
concluded that while it appears all recertifications        based system for case man-agement, audit
were gen-erally completed, we could not assess              resolution, and the program review process,
the adequacy of the recertification process for             followed by our overall IPOS management
eighteen percent of our sample, because                     review report.

 — Implementation of the “85/15” rule
If a proprietary institution fails to obtain at least 15 percent of its revenue from other than Title IV
program funds (known as the 85/15 rule), the institution must notify the Depart-ment of its ineligibility
within 90 days from the end of its fiscal year. The annual nonfederal audit must also report on the
accuracy of the institution’s calculation of the 85/15 rule.

Audit identifies $8.6 million of ineligible funds           computed the 85/15 percentages by using non-
                                                            revenue items when comput-ing the non-Title IV
We initiated a project to assess the imple-
                                                            portion of revenue. The independent auditor also
mentation of the 85/15 rule since it became
                                                            did not iden-tify the errors in the institution’s
effective on July 1, 1995. Our first audit on this
                                                            calcu-lation.
project was issued this period and iden-tified $8.6
million of ineligible funds award-ed by an                  Additional audits at other institutions are ongoing
institution (see Abstract 1, “Signi-ficant Audits           and preliminary results have indi-cated similar
and Audit-related Activities”).        The audit            problems.
determined that the institution incorrectly

 — NSLDS data integrity
During this period we issued the first of two audit reports regarding controls over the accuracy of loan
data in the National Student Loan Data System (NSLDS).

Records not updated with lender data                        data, lenders’ failure to submit loan level data to
                                                            guaranty agencies, and guaranty agencies’
We found that 3.7 million loan records to-taling
                                                            inability to identify current holders of the loans.
$10.7 billion (about 14 percent of all Federal
Family Education Loan program records in                    We recommended, and the Department agreed, to
repayment status on the NSLDS) have not been                reclassify these loan records to more accurately
updated with lender data. We identified the                 reflect the loans’ actual sta-tus and principal and
causes as some paid-in-full loans data were                 interest balances, thereby improving the integrity
incorrectly loaded into NSLDS during the start-up           of the data in NSLDS.
phase of the system in 1994, lenders          are
unwilling or unable to correct incorrectly loaded

Our recommendations to address these findings are presented in Abstract 1, “Significant Audits and
Audit-related Activities.”

Elementary And Secondary Education Act (ESEA)
 — Reauthorization
The OIG conducted a series of reviews to assist ED program officials, the Office of Manage-ment and
Budget and Congress in reauthorizing the ESEA in 1999. In addition to these reviews, we are preparing

                                                        8
an OIG “perspectives paper” on the 1999 reauthorization of the ESEA. A brief summary of these reviews
is set forth below

“Following Title I, Part A and Secondary                 “Charter School Accountability for Federal
School Vocational Education Program Dollars              Education Requirements”
to the Schools in 36 LEAs Visited”
                                                         Our review showed that state and local ov-ersight
Our report shows that in school year 1996-1997,          of charter schools was as rigorous as their
an average of 92 percent of Title I, Part A and an       oversight of other public schools. However, we
average of 95 percent of vocational education            found that education officials at the state and
dollars provided to the local education agencies         local levels were not admin-istering the Public
reached the schools in the 36 agencies visited.          Charter School Program in accordance with
                                                         certain federal require-ments because of
For a more detailed description of our find-ings
and recommendations, see Abstract 1,                     weaknesses in ED′   s proce-dures for providing
“Significant Audits and Audit-related Activi-            guidance and technical assistance.
ties.”


Audit Quality Initiatives
 — Cooperative Audit Resolution And Oversight Initiative
As reported in previous Semiannual Reports, we have been working with an intra-departmental team on a
wide-ranging project known as the Cooperative Audit Resolution and Oversight Initiative, or CAROI.
Other offices participating in the CAROI initiative include the Office of Elementary and Secondary
Education, the Office of Vocational and Adult Education, the Office of Special Education and
Rehabilitative Services, the Office of the General Counsel and the Office of the Chief Financial and Chief
Information Officer.
The CAROI team has been working with a consultant in the production of a handbook that will document
the process to be used by the Department in its transition to a comprehensive cooperative audit resolution
process. The handbook will also be available as a model for other agencies in their assimilation of the
CAROI process. The CAROI team is working with Illinois and Puerto Rico to resolve time-distribution
problems, as well as resolving recurrent audit findings with Florida, California, and Mississippi. We
expect to complete these pro-jects during the next reporting period.
Details of our accomplishments this period on the CAROI project are found in Abstract 1, “Significant
Audits and Audit-related Activities.”

 — Audit guidance and quality of nonfederal audits
This period we worked with the Office of Manageement and Budget (OMB) and program staff to develop
14 new program compliance supplements that were included in the OMB Circular A-133 Compliance
Supplement issued in May 1998. We also provided OMB with our recommendations for changes to
existing program compliance supplements. Revising the supplements is a major government-wide effort
and the guidance in the compliance supple-ments is used in the audits of state, local and nonprofit
recipients of federal assistance.
We developed the first series of “Questions & Answers” concerning ED programs audited in accordance
with OMB Circular A-133. The Q&A document is available on the Non-Federal Audit Team Web Pag e
at http://home.gvi.net/~edoig.

 — Audit quality projects
We continued to focus on improving audit quality by performing quality control reviews (QCRs) of the
audit working papers prepared by independent public accountants (IPAs) who audit ED programs. We
assess the quality of those audits by reviewing the auditors’working papers for adherence to requirements
set forth in prescribed audit guidance, generally accept-ed auditing standards issued by the American
                                                     9
Institute of Certified Public Accountants, and Government Auditing Standards issued by the Comptroller
General of the United States.
This period we completed 45 QCRs and made nine referrals to the applicable State Boards of
Accountancy and to the American Institute of Certified Public Accountants for possible disci-plinary
action against independent public accountants (IPAs) whose audits were determined to be substandard or
significantly inadequate. We also issued a notice of suspension and debarment for one IPA from
participating in any covered transaction under procurement or nonprocurement programs and activities of
any federal agency. Final determination of the proposed debarment is pending.




                                                  10
                         P.L. 95-452 REPORTING REQUIREMENTS

SECTIONS 5(a)(1) and 5(a)(2) Significant Problems, Abuses and Deficiencies
$ Significant Audits and Audit-related Activities .................................................................................. 12
$ Significant Prosecutive Actions Resulting from OIG Investigations ................................................... 23

SECTION 5(a)(3) Recommendations Described in PreviousSemiannual Reports on Which Corrective
                    Action Has Not Been Completed ........................41

SECTION 5(a)(4) Matters Referred to Prosecutive Authorities.................................................... 23, 50

SECTIONS 5(a)(5) and 6(b)(2) Summary of Instances Where Information Was
                          Refused or Not Provided*

SECTION 5(a)(6) Listing of Audit Reports
$ ED/OIG Reports on Education Department Programs and Activities.................................................. 43

SECTION 5(a)(7) Summary of Significant Audits
$ Significant Audits and Audit-related Activities .................................................................................. 12

SECTION 5(a)(8) Audit Reports Containing Questioned Costs
$ Inspector General Issued Reports with Questioned Costs ................................................................... 46

Section 5(a)(9) Audit Reports Containing Recommendations That Funds Be Put to
                   Better Use
$ Inspector General Issued Reports with Recommendations for Better Use of Funds............................. 47

SECTION 5(a)(10)    Summary of Unresolved Audit Reports Issued Prior to the
                Beginning of the Reporting Period
$ Unresolved Reports Issued Prior to April 1, 1998 .............................................................................. 48

SECTION 5(a)(11)             Significant Revised Management Decisions*

SECTION 5(a)(12)             Significant Management Decisions with Which OIG Disagreed*


                                                                                             *We have no instances to report.




                                                                 11
                                                     Abstract 1

                                  SIGNIFICANT AUDITS AND
                                 AUDIT-RELATED ACTIVITIES
                                   April 1, 1998 — September 30, 1998


                      NOTE: The amounts reported by auditors for the reports described below
                    are subject to further review and final determination by Department officials.


                                     — INFORMATION SYSTEMS —

                             REVIEW OF USA GROUP'S YEAR 2000 READINESS PLANS
                                         ACN 05-80026     September 29, 1998

The purpose of our review was to supplement the activities of OPE in ensuring that USA Group had developed
adequate management plans to achieve Year 2000 compliance. We also wanted to ensure that USA Group was
meeting the milestones it established for each Year 2000 project phase (aware-ness, assessment, renovation,
validation, and implementation).

Our review disclosed that USA Group has sufficient controls in place to reasonably ensure that it is making
satisfactory progress in its Year 2000 efforts. We found that USA Group exhibits acceptable performance in all key
phases of the Year 2000 project management process.


        REVIEW OF GREAT LAKES HIGHER EDUCATION CORPORATION'S YEAR 2000 READINESS PLANS
                                         ACN 05-80024 September 30, 1998

The purpose of our review was to supplement the activities of OPE in ensuring that Great Lakes had developed
adequate management plans to achieve Year 2000 compliance. We also wanted to ensure that Great Lakes was
meeting the milestones it established for each Year 2000 project phase (awareness, assessment, renovation,
validation, and implementation). Our review disclosed that the entity has sufficient controls in place to reasonably
ensure it is making satisfactory progress in its Year 2000 efforts. We believe that Great Lakes' Year 2000 efforts are
satisfactory, because the entity exhibits acceptable performance in all key phases of the Year 2000 project
management process. However, we did suggest that the Department of Education address data exchange and
contingency planning issues during its monitoring of Great Lakes' Year 2000 plans.


                                           REVIEW OF GAPS SECURITY
                                         ACN 11-80013     September 30, 1998

Our assessment of the overall security surrounding the Grants Administration and Payment System (GAPS)
production environment identified a number of technical and procedural security exposures. Our recommendations
presented opportunities for the enhancement of GAPS security in the areas of security access control, security option
settings, audit trail controls, cash management, security admin-istration, ensuring accountability, and appropriate
segregation of developers from security and appli-cation functions.
Due to the sensitivity of the exposures and recommendations identified during the review, detailed information was
not provided in our report, but was transmitted to the OCFO/CIO under separate cover. OCFO/ CIO officials
indicated general agreement with the intent of the recommendations and conveyed their plan to take appropriate
corrective action to mitigate the exposures. In addition, they expressed a strong interest in working closely with our
review team to reach a mutually agreeable resolution to correcting the underlying exposures.


                                                         12
                          — FINANCIAL REPORTING AND CONTROLS —

                  U.S. DEPARTMENT OF EDUCATION’S FISCAL YEAR 1997 FINANCIAL STATEMENTS
                                        AND ACCOMPANYING NOTES

                                            ACN 17-70002      May 29, 1998

In accordance with applicable provisions of the Government Management and Reform Act of 1994 (GMRA), the
OIG released audit reports to the Department for inclusion in the 1997 Accountability Report. The GMRA requires
the OIG to audit ED’s financial statements and report on the fair presentation of the financial statements (opinion),
internal controls, and compliance with laws and regulations. Distribution of the Accountability Report constitutes
the official distribution of these audit reports.
The Department received an unqualified opinion on its FY 1997 financial statements. An unqualified opinion states
that the financial statements are presented fairly, in all material respects.
The report disclosed material weaknesses and reportable conditions in the internal control structure and its
operation. The four material weaknesses relate to: 1) lack of sufficient validation of National Student Loan Data
System data as a basis for preparing reliable loan estimates, and insufficient controls over the process of preparing
loan estimates; 2) insufficient oversight of guaranty agencies; 3) lack of timely and effective reconciliations of the
Department’s Budget Clearing (Suspense) Account cash balance and activity with the Department of the Treasury;
and 4) inadequate controls over the financial reporting process. The report included recommendations for
improving controls.
The report disclosed the following instances of non-compliance with laws and regulations that are required to be
reported:
♦     ED did not meet the statutory deadline by which it is required by GMRA to issue audited financial statements
      (March 1st of the preceding fiscal year).
♦     ED did not report two material weaknesses identified during the course of the audit (relating to ED’s financial
      reporting process and fund balance with Treasury) in its report under the Federal Managers’Financial
      Integrity Act, as required by OMB Bulletin No. 93-06.
♦     The results of our tests under the Federal Financial Management Improvement Act of 1996 disclosed
      instances where ED’s financial management systems did not substantially comply with the federal financial
      management systems requirements.




                                                         13
                                      — DEPARTMENT OPERATIONS —

    MOVING TOWARDS A RESULTS -ORIENTED ORGANIZATION : A REPORT ON ED'S IMPLEMENTATION OF THE
                                         RESULTS ACT
                                         ACN 17-70007     September 23, 1998

The objectives of our audit were to assess the status of ED’s implementation of the Government Performance and
Results Act of 1993 (GPRA or the Results Act) and the development of systems for the timely and accurate
reporting of performance indicators. Our assessment represents a "snapshot" of ED's current status in implementing
the Results Act.
As required by the Results Act, ED has prepared a strategic plan and an annual performance plan for fiscal year
1999, and designed a framework for the validation and verification of performance indica-tors. ED distributed those
plans and established a reporting system for progress on the objectives in the strategic plan. In order to be prepared
to meet the additional requirements of the Results Act in a timely and proper manner, ED now needs to take
additional steps, including finalizing and imple-menting a process for the accurate and timely reporting of GPRA
performance indicators.


                                           MANAGEMENT REVIEWS

                   INTERNATIONAL MERCHANT PURCHASE AUTHORIZATION CARD (IMPAC CARD)
Our review did not disclose any material weaknesses in use of the IMPAC card at any of the De-partment’s principal
offices (POs). However, we did observe some minor infractions. For example, we recommended placing additional
authorizing officials in one PO’s regional offices, thereby providing someone on-site who would be more familiar
with the need for and quantity of items purchased with their IMPAC cards. In another case, a PO was missing some
backup documentation to support its IMPAC card purchases.
To address these and other identified deficiencies, we recommended that OCFO/CIO update the De-partmental
directive regarding commercial credit card service.


                 MANAGEMENT OF ED'S FREEDOM OF INFORMATION ACT (FOIA) OPERATIONS
Our review disclosed that the CIO had not fully complied with the l996 FOIA amendment that re-quired each
agency to issue in hard copy and on-line, by March 3l, l997, a handbook containing an index of all major agency
information systems and information for obtaining public information from the agency through FOIA requests. We
recommended that CIO:

♦     provide sufficient resources to ensure that the 1996 FOIA amendments are fully implemented at headquarters
      and in the regional offices;

♦     establish an ED-wide reading room for FOIA requesters;
♦     make FOIA information more accessible on the ED World-Wide Web site;
♦     revise the Department’s FOIA directive and Code of Federal Regulations to reflect the changes in the 1996
      FOIA amendments; and

♦     provide training on the FOIA amendments to all ED FOIA coordinators.




                                                         14
                     ED'S MANAGEMENT OF ITS COMMON SUPPORT EXPENSE FUND (CSEF)
Our review disclosed that although the Department had established polices and procedures under its Administrative
Control System for financial management in general, it had not established and com-municated to POs such
guidelines that apply exclusively to the CSEF. As a result of the above, some POs felt that they were not given a
fair chance to participate in the decision-making processes that directly affected how and why their funds were being
applied.

We recommended that the Department’s Office of Management:
♦     work with Budget Service and POs to develop and communicate to all stakeholders formal policies and
      operating procedures that are solely applicable to the CSEF;
♦     work with the Budget Service and continue the search for additional service areas where charge-back amounts
      can be based on actual charges rather than on FTE usage; and

♦     ensure that POs can raise questions and get adequate responses to their questions about any aspect of the PO’s
      fund account.


                    RAYTHEON E-SYSTEMS , FALLS CHURCH, VA, DIRECT LOAN SERVICING
                       CONTRACT CLOSE-OUT PROPOSAL DATED FEBRUARY 20, 1998
                                            ACN 07-80007      July 10, 1998

The objectives of our audit of this $19.2 million contract were to determine whether the costs claimed were incurred,
allowable, and adequately supported by contractor records. This audit was requested by Contracts and Purchasing
Operations staff to assist them in close-out negotiations. We performed fieldwork at the contractor's locations in
Falls Church, Virginia, and Greenville, Texas, and also at the subcontractor’s (Great Lakes Educational Loan
Services, Inc.) location in Madison, Wisconsin.
We generally found that costs claimed were incurred, allowable, and adequately supported by con-tractor records.
However, we found that:

♦     the contractor’s close-out proposal included $923,694 in unallowable costs;
♦     an additional $929,262 of contract costs were incurred after the contract expired; and
♦     costs included equipment and other items with residual value of $1,441,452 which were purchased under the
      contract and are considered government property.


                                 — POSTSECONDARY EDUCATION —

                   REVIEW OF THE DEPARTMENT’S O VERSIGHT OF SCHOOLS PARTICIPATING IN THE
                           WILLIAM D. FORD FEDERAL DIRECT LOAN PROGRAM
                                         ACN 04-70016      September 25, 1998

The objectives of our review, a follow-on to the work performed for our report titled “Administration of the William
D. Ford Direct Loan Program by Schools,” were to examine the Department’s processes for monitoring school
administration of the Direct Loan program and to identify areas where im-provements could be made. Our review
identified the following concerns with the Department’s oversight of the Direct Loan program:
♦     The Department does not have sufficient data to effectively monitor schools participating in the Direct Loan
      program.
♦     The Department needs to improve its approach to monitoring Direct Loan schools.
♦     Lack of loan-level matches decreases control over data reliability.

Department officials generally agreed with the recommendations made relative to Findings 1 and 2 and have
planned or taken actions that should improve the cited conditions. For Finding 3, Department officials believe that
their system for data verification is more effective than the OIG’s recommendation for loan-level data verification.

                                                         15
We have revised our recommendation and are recom-mending that the Department implement interim measures
until they can provide assurances that their system will provide the necessary safeguards for data reliability.


        INSTITUTIONAL PARTICIPATION AND O VERSIGHT SERVICE HAS OPPORTUNITIES TO IMPROVE THE
                                      RECERTIFICATION PROCESS
                                           ACN 05-80011      August 27, 1998

Our review found that the Institutional Participation and Oversight Service (IPOS) case teams did not always
document work performed, including supervisory reviews, to reach recertification decisions. We recommended that
IPOS:

♦      develop, document, and implement management controls, to ensure that: a) case teams ade-quately document
       all work performed to reach recertification decisions, and b) supervisors continuously review and approve the
       assigned work of the case teams; and

♦      require each case team to document all implementing procedures.
We also found that IPOS has an opportunity to improve its filing system to ensure that institutional files are properly
maintained and readily available. We could not assess the recertification process for 18 percent of the institutions
for which we requested files because IPOS could not locate one or more of the files. We recommended that OPE
allocate space to IPOS so that it can develop a secure record and retrieval system which includes access, filing,
tracking, and maintenance controls.


    AUDIT OF THE GUARANTOR AND LENDER OVERSIGHT SERVICE'S OVERSIGHT OF LENDERS PARTICIPATING IN
                           THE FEDERAL FAMILY EDUCATION LOAN PROGRAM

                                          ACN 05-70015     September 24, 1998

The purpose of our audit was to evaluate the Guarantor Lender and Oversight Service’s (GLOS) oversight of lenders
and determine whether controls were sufficient to provide reasonable assurance that the lenders were complying
with federal regulations. We also wanted to ensure that the types of oversight (audits, guaranty agency reviews, and
GLOS reviews) did not result in duplication.
We found that GLOS has controls in place to ensure that the required lender audits were completed. We also found
that GLOS review staff are adhering to management's controls when conducting their reviews. However, we
identified significant overlap among IPA audits, GLOS reviews, and guaranty agency reviews. We provided OPE
with a suggestion on how to reduce any need for such overlap.


    ASSOCIATED TECHNICAL COLLEGE ELIGIBILITY OF INSTITUTIONS TO PARTICIPATE IN TITLE IV PROGRAMS
                                        AND OTHER ISSUES

                                          ACN 09-70015      SEPTEMBER 9, 1998

Our review found that Associated Technical College (ATC) did not comply with certain provisions of the Higher
Education Act (HEA) and federal regulations in its administration of the Pell Grant program.
Our review identified the following:
♦      ATC's Los Angeles and San Diego campuses did not qualify as eligible proprietary institutions of higher
       education because revenues from Title IV programs exceeded 85 percent of campus revenues. Under the
       HEA, proprietary institutions must derive at least 15 percent of their revenues from non-Title IV sources to
       participate in Title IV programs.
♦      ATC overstated its actual tuition costs when calculating student refunds. As a result, ATC understated the
       refunds due to the Pell Grant program for students who dropped out of the institution.

♦      ATC lacked adequate record maintenance. Student files for 51 of 145 selected students were not made
       available at the time of our review. In addition, ATC could not readily provide us with supporting
       documentation on cash revenues for the Anaheim campus and receivables for all campuses. ATC's failure to
       provide this information indicates that it may not have the necessary administrative capability to participate in
       Title IV programs.


                                                          16
Our report recommended that the Assistant Secretary for Postsecondary Education take emergency action to
terminate participation of the Los Angeles and San Diego campuses in the Title IV programs. We also
recommended that the Assistant Secretary require ATC to return the $8.6 million received by the two campuses after
July 1, 1995 (the date on which the campuses became ineligible under the 85 percent rule); and that ATC identify
and return any additional refund amounts due for students who dropped out of the Anaheim campus during the
period July 1, 1995 to the present. The report also includes procedural recommendations for the Anaheim
institution.


NSLDS CAN BE ENHANCED IF LOAN PRINCIPAL AND INTEREST BALANCES AND STATUSES ARE UPDATED WITH
                                       LENDER DATA
                                          ACN 06-70001      September 30, 1998

Our review found that ED has made significant progress in improving the integrity of the National Student Loan
Data System (NSLDS) in the last 18 months. However, a significant number of the loan records which initially
populated NSLDS have not been updated with lender-provided loan status, and with principal and interest balance
data. About 3.7 million loan records totaling $10.7 billion (about 14 percent of all FFELP loan records in repayment
on NSLDS) have not been updated with lender data.
We recommended that the Department, in cooperation with the guaranty agencies, reclassify these loan records to
more accurately reflect the loans′actual status and principal and interest balances, thereby increasing the usefulness
of NSLDS.
One factor that reduces the reliability of NSLDS loan-status and balance data is that guaranty agencies have not
been able to update significant numbers of FFELP loan records on NSLDS with current lender-provided data.
Factors affecting the guaranty agencies′ability to report current data include: 1) lenders′unwillingness or inability
to report on loans that were paid-in-full prior to NSLDS and incorrectly loaded on NSLDS as active loans in
repayment; 2) lenders′failure to submit loan level data to their associated guaranty agency(s); and 3) guaranty
agencies′inability to identify the current holders of the loans. The Department agreed with our findings and
recommendations.

                             PROFESSIONAL JUDGMENT AT THE UNIVERSITY OF COLORADO
                                             ACN 06-70009      July 17, 1998

Our review disclosed that the University of Colorado inappropriately used professional judgment to modify the
statutory needs analysis formula for certain students based on their place of residence. The Higher Education Act
does not grant financial aid administrators the authority to make modifications to the statutory formula based upon
their belief that a student’s place of residence constitutes a financial hardship. We also identified other inappropriate
uses of professional judgment.
We questioned professional judgment actions for 34 percent of 100 students sampled. The questioned actions
resulted in $15,082 in additional Pell grants being disbursed in award years 1994-95 through 1996-97. The
university disagreed that professional judgment was used improperly.


       STRENGTHENING INSTITUTIONS PROGRAM AUDIT AT DONNELLY COLLEGE , KANSAS CITY, KANSAS
                                             ACN 07-80005      July 10, 1998

The objective of our audit was to determine whether Donnelly College, Kansas City, Kansas, has ac-counted for and
expended Title III, Strengthening Institutions funds in accordance with applicable program requirements. Our
review identified the following weaknesses in Donnelly College’s adminis-tration of the Strengthening Institutions
program:

♦     Donnelly College claimed and reported salary expenditures based on budgeted amounts rather than actual
      expenditures.
♦
      Donnelly College’s accounting records did not adequately identify the source and application of federal funds.
♦
      Donnelly College did not adequately support all of its grant expenditures or consistently follow its established
      procedures.



                                                          17
    Donnelly College has taken corrective action or has planned actions that generally should correct the cited
    conditions.

                                     APPLICANTS WITH DEFAULTED STUDENT LOANS
                                        CONTINUE TO RECEIVE FINANCIAL AID
                                                ACN 06-70004      June 23, 1998
    Our review disclosed that students who are ineligible because they have defaulted loans continue to be awarded
    student financial aid. We found that applications for financial aid are not rejected when Department records show
    that an applicant has defaulted on a student loan or received a grant overpayment. Instead, applicants’ records are
    flagged and school officials are responsible for taking the appropriate action. This reliance on schools has not
    always prevented ineligible students from receiving additional aid. We estimate that 3,278 ineligible students
    received $11.9 million of award year 1996-97 student financial aid.
    The Department took action after our audit period to improve controls and has plans to provide additional guidance
    to schools on how to resolve the eligibility of applicants with flagged records. We recommended that the
    Department implement planned additional actions and monitor the effective-ness of these actions at least annually.
    If these actions are not effective, we recommend that the De-partment take stronger action, to include rejecting
    applications from all applicants who are identified as having a defaulted loan or grant overpayment.


        THE DEPARTMENT OF EDUCATION HAS AN OPPORTUNITY TO IMPROVE ITS MANAGEMENT OF THE DEFAULT
                                           AVERSION PROGRAM
                                             ACN 05-80007      September 23, 1998

    Effective July 1, 1996, Great Lakes Higher Education Corporation (Great Lakes) and ED entered into a default
    aversion agreement, whereby Great Lakes agreed to support ED’s efforts to reduce defaults in the Federal Family
    Education Loan Program by accepting an alternative method for payment of the costs of preclaims assistance, claim
    payment, and collections. The alternative payment method is de-signed to provide an incentive to Great Lakes to
    avoid defaults by borrowers and limit Great Lakes’ reliance on post-default collections as a method for financing
    operations
    While our audit disclosed that Great Lakes generally administered the new program in accordance with the
    Agreement, we found that ED:
    ♦     did not identify indicators of success needed to monitor the experimental program′
                                                                                           s performance;
    ♦     lacked adequate policy guidance;
    ♦     needs to improve communication within ED offices and with Great Lakes; and
    ♦     lacked adequate financial reporting. As a result, we could not conclusively determine the merits of the
          experimental program.


                   INCOME CONTINGENT REPAYMENT: COST ATTRIBUTION AND BORROWER STUDIES
                     COULD ASSIST TO MEET THE OBJECTIVES OF FEDERAL FINANCIAL REPORTING
                                         AND PROGRAM MANAGEMENT

                                                ACN 07-70002      June 1, 1998

    This report sets out the results of our analysis and recommendations regarding the Federal Direct Loan Program’s
    (FDLP), Income Contingent Repayment (ICR) plan. The ICR plan has been in effect for only a few years and the
    costs and benefits associated with the plan are not fully known. Nevertheless, we decided to provide as much
    information to program managers as possible at this time, along with our recommendations for additional studies of
    ICR plan costs and users. In order to better support future policy decisions, the Department should:
♦
         expand the accumulation of and report ICR costs separately from other FDLP costs in order to be able to
         attribute the costs to the original loan program;
♦        expand the data collected to include a long-term study to determine the characteristics of ICR borrowers in
         order to better understand and address the needs of the population that the ICR plan serves; and

                                                             18
♦       continue to accumulate the cost of the ICR plan in order to better support important policy decisions.

    The Department agreed with the report’s focus on the importance of gathering and analyzing cost and borrower data
    related to the Direct Loan’s ICR plan. The Department noted that it accumulates data on the FDLP income
    contingent repayment plan through a number of Department systems.


          REVIEW OF R. GONZALEZ MANAGEMENT, INC.’S PROCESSING OF STUDENT FINANCIAL ASSISTANCE
                           TRANSACTIONS AND REPORTS FOR VOCATIONAL SCHOOLS
                                               ACN 09-70003      April 21, 1998

    The objectives of our audit were to determine whether R. Gonzalez Management, Inc. (RGM): 1) is performing
    duties that are in accordance with SFA program requirements, and 2) has adequate inter-nal controls to protect the
    federal interest. We found that RGM could better protect the integrity of its computer system by implementing
    additional electronic data processing controls. RGM’s system did not consistently calculate refunds in accordance
    with SFA program requirements and ensure that refund information was consistently recorded. RGM also had not
    properly resolved unreconciled transactions for the Direct Loan program.
    We recommended that the Department encourage RGM to strengthen controls over its computer sys-tem and
    address problems noted with its refund calculations and handling of unreconciled direct loan transactions.




                                                            19
                        — ELEMENTARY AND SECONDARY EDUCATION —
                             FOLLOWING TITLE I, PART A AND SECONDARY SCHOOL
                               VOCATIONAL EDUCATION PROGRAM DOLLARS TO
                                     THE SCHOOLS IN 36 LEAS VISITED
                                            ACN 04-70012      June 26, 1998
The objectives of our audit were to determine what percentage of Title I, Part A and Secondary School Vocational
Education Program dollars reached the schools, and to identify the types of expenditures for these two programs at
the LEA and school levels.
Our audit found that, for the 36 LEAs visited, on average 92 percent of Title I, Part A, and 95 percent of Vocational
Education dollars provided to the LEAs reached the schools. The majority of Title I, Part A, funds were used to
support the salaries and benefits of personnel directly related with school activities. For the Secondary School
Vocational Education program, the majority of the dollars were used to support salaries and benefits and to
purchase materials and equipment for the schools.

                      APPALACHIA EDUCATIONAL LABORATORY, INC.’S ADMINISTRATION
                         OF THE REGIONAL EDUCATIONAL L ABORATORY CONTRACTS
                                           ACN 03-70007       June 26, 1998

Our audit of Appalachia Educational Laboratory, Inc. (AEL), a nonprofit research organization, found that AEL did
not administer the Regional Educational Laboratory (REL) contract for fiscal year 1996 in a manner that ensured that
its building space and staffing levels were reasonable for the performance of the contract. We found that:

♦     In FY 1996, AEL charged an unreasonably high amount of office space to the REL contract, at the rate of 345
      square feet per FTE, a rate that substantially exceeded estimates provided by gov-ernment experts.

♦     AEL appears to have an unreasonable proportion of managers and support staff assigned to the REL contract.
      Our analysis of time charged to the REL contract showed that one AEL manager worked on the contract for
      every 2.2 employees. AEL’s ratio falls far short of the target and actual ratios of the government.
AEL expressed nonconcurrence with our findings.


    AUDIT OF THE MASSACHUSETTS REHABILITATION COMMISSION’S PROVISION OF TRAINING SERVICES AND
                   CLIENT MONITORING FOR THE PERIOD OCTOBER 1, 1994 THROUGH
                           SEPTEMBER 30, 1995, BOSTON, MASSACHUSETTS
                                           ACN 01-60003       June 30, 1998

 The objectives of our audit were to determine whether the Massachusetts Rehabilitation Commission (MRC) was
adequately monitoring client progress and considering prior client education and voca-tional skills when establishing
vocational goals.
We found that MRC case files did not contain evidence of sufficient annual and periodic reviews to demonstrate
adequate monitoring of client progress. We also found that MRC did not always consider prior education or
vocational skills when establishing the client’s vocational goal. Indeed, many case files containing evidence of
previous client education and/or vocational skills lacked evidence that the education and/or skills were considered in
establishing vocational goals. In addition, 90 percent of the case files containing evidence of one or more changes to
the client’s initial vocational goal did not contain justification for the changes.
Our review further disclosed that the majority of the case files of substance abuse problems did not contain
sufficient evidence of attendance in recovery programs, as prescribed in the clients’ Individual-ized Written
Rehabilitation Program.
We recommended that the Department require MRC to implement specified procedures and training to address the
problems we identified.


       STATE OF NEW MEXICO: SUSTAINABILITY OF THE SCHOOL-TO-WORK OPPORTUNITIES PROGRAM
                                            ACN 07-70004      May 27, 1998

                                                         20
The objective of this audit was to determine whether New Mexico has institutionalized elements that are indicative
of a sustainable School-to-Work (STW) system. Even though New Mexico’s five-year STW Implementation Grant
had only been awarded eight months prior to our review, we found that the state had taken measures that would
contribute to system sustainability.
Through the creation of a statewide career education program, it had laid a foundation for the school-based learning
component of its STW system. Further, its placement of the position of STW Coordi-nator in the governor’s office
appears to have encouraged a level of partnership and team work among key state agencies that may otherwise have
been difficult to achieve. In addition, system sustainability may be enhanced by decisions made by state officials
that will extend the benefits of STW to include students in non-public as well as public schools.
We also found areas in which actions could be taken to increase the likelihood that New Mexico’s STW system will
be sustained after federal funding ceases. The National School-To-Work Office should work with New Mexico to
implement our recommendations, which include the following:
♦     The STW Advisory Council should develop formal plans for transition to the governance structure that will
      implement the STW system after federal funding ceases.

♦    The State Board of Education and the New Mexico Department of Education should focus their strategic
     planning efforts on the transformation of public education in New Mexico into an STW-based education
     system.

♦     The State Board of Education should establish policies and procedures that will ensure that K-12 teachers,
      counselors, and administrators are prepared to deliver STW services to all students.

The State of New Mexico generally concurred with our recommendations.


                  COOPERATIVE AUDIT RESOLUTION AND OVERSIGHT INITIATIVE
As reported in previous Semiannual Reports, we have been working with an intradepartmental team on a wide-
ranging project know as the Cooperative Audit Resolution and Oversight Initiative, or CAROI. The goal is to
improve education programs and student performance at the state and local levels through better use of audits,
monitoring and technical assistance. Due to the number of inquiries and requests from states to participate in the
CAROI process, we are working with the Department to streamline and institutionalize the process further.
Following are the CAROI team’s accomplishments during the reporting period for the four CAROI strategies.

                          #1: Create and Maintain a Dialoque with States
The team made presentations at the Office of Vocational and Adult Education and State Joint Planning Workshop
and at the National State Auditors Association Conference.

#2: Work with States to Resolve Open Audits or Audits Under Appeal
The CAROI team is currently working with a consultant in the production of a CAROI handbook that will document
the process to be used by the Department in its transition to a comprehensive co-operative audit resolution process.
The handbook will also be available as a model for other agencies in their assimilation of the CAROI process. The
CAROI team is working with Illinois and Puerto Rico to resolve time distribution problems. The CAROI team is
also working to correct recurring audit deficiencies in Florida, California and Mississippi. We expect to complete
all of these projects during the next semiannual period.

                                      #3: Improve the Single Audit Process
The team continues to work with state auditors from Washington and Georgia and with the Office of Management
and Budget on a pilot project under the provisions of the Single Audit Act Amendments. The goal of the pilot
project is a comprehensive single audit report on how federal programs are managed at the local level. At present,
the Department receives little information from the single audits conducted at most LEAs. These pilot projects
would give federal program managers infor-mation on how federal programs operate at the local levels.

                         #4: Coordinate Audits, Monitoring and Technical Assistance


                                                        21
The CAROI team is working with the Department in program coordination reviews and other state program
monitoring efforts. This period CAROI members participated in program coordination reviews in New Mexico,
Ohio, Nebraska and Wisconsin. The CAROI members are working with pro-gram officials to ensure the linkage
between audits, monitoring, and technical assistance. The CAROI team is also participating as a member of the
Department’s Data Coordination group, which is con-sidering more efficient and effective approaches to data-
collection coordination and usage.


                                   QUALITY OF NONFEDERAL AUDITS
This period we completed 45 quality control reviews (QCRs) of proprietary-school audit workpapers; of those, 23
(approximately 51 percent) were substandard or contained significant inadequacies. We plan to evaluate the
corrective action taken on the substandard audits and also take appropriate action against those with significant
inadequacies, which may include referrals to the State Boards of Ac-countancy and to the AICPA, and issuance of
notices of government-wide suspension and proposed debarment.




                                                      22
                                             Abstract 2

                    SIGNIFICANT PROSECUTIVE ACTIONS
                   RESULTING FROM OIG INVESTIGATIONS
                             April 1, 1998 — September 30,1998




                LENDERS, SERVICERS, AND GUARANTY AGENCIES
                                 CYBERNETICS AND SYSTEMS, INC.
                                        CSX CORPORATION
                                         Jacksonville, Florida

Cybernetics and Systems, Inc. (CSI), a subsidiary of CSX Corporation, pled guilty in the Middle
Dis-trict of Florida to a one-count criminal information charging CSI with possession of false
papers with intent to defraud the United States. CSI, which was ordered to pay a $2 million
criminal fine, also entered into a civil settlement in which CSI agreed to pay the Department $28
million under the False Claims Act. Both the criminal and civil settlements have been paid in
full. The criminal and civil resolution of this joint ED/OIG and U.S. Postal Inspection Service
investigation was the result of seven years of combined audit and investigative activity.
During the 1980's CSI, a corporation incorporated under the laws of the Commonwealth of
Virginia, operated a business in Jacksonville, Florida, which serviced federally insured student
loans under the Federal Family Education Loan Program, formerly known as the Guaranteed
Student Loan (GSL) program. The criminal information charged that a CSI employee
intentionally falsified a record con-cerning due diligence requirements for loan servicing. The
record was used to support a claim against the Department for reinsurance under the GSL
program. Although the information charged only one incident, CSI agreed that numerous
instances of similar fraudulent conduct occurred during the peri-od, resulting in the payment of
numerous fraudulent claims by the federal government.
The joint audit and investigative activities involved the review of the collection histories of over
200,000 student loans. Additionally, hundreds of interviews of CSI employees from student loan
collectors to upper management of the CSX Corporation were conducted. Millions of
documents, including telephone records and internal and external correspondence, were also
analyzed. The paper trail and interviews revealed that the volume of work at CSI, the use of
overly aggressive marketing efforts, the failure to invest in updated technology, and the lack of
student loan program knowledge at the management level all contributed to an environment at
CSI, beginning in late 1987, that was ripe for fraud and abuse. CSI was sold in 1992.
The audit and investigative team was recognized for their hard work and achievement this
period when the President’s Council on Integrity and Efficiency awarded the team an Award for
Excellence.




                                                 23
                      SCHOOL OWNERS, OFFICIALS AND EMPLOYEES
                                       BREWTON-PARKER COLLEGE
                                       Y. Lynn Holmes, president
                              Thomas R. Hartley, vice president of fiscal affairs
                                 Cecelia Hightower, financial aid director
                                         Mount Vernon, Georgia
A civil settlement was entered in the Southern District of Georgia in which Brewton-Parker College,
Mount Vernon; Georgia, Y. Lynn Holmes, president; Thomas R. Hartley, vice president of fiscal af-fairs;
and Cecelia Hightower, financial aid director, agreed that Brewton-Parker College would pay the United
States $4 million. According to the terms of the agreement, $2 million was paid within 30 days of the
signed agreement. It was further agreed that the remaining $2 million plus interest would be paid over a
two-year period.
A four-count civil complaint filed in October 1997 in the Southern District of Georgia charged the
aforementioned individuals and entity with making false claims against the United States, making false
statements, breach of contract, and unjust enrichment. According to the complaint, the defen-dants
presented 1,871 false claims to the United States and caused the United States to suffer dam-ages of over
$2.1 million in Pell Grant and Supplemental Educational Opportunity Grant (SEOG) funds. The scheme
involved the drawdown of Pell and SEOG funds in the names of incarcerated students who either
withdrew from school or did not re-enroll. The complaint further alleged that the funds were then
disbursed to ineligible student athletes attending the school as well as to fund athletic scholarships for
students who were also ineligible for SFA funds. During the investigative period, the baseball team at
Brewton-Parker won the National Association of Intercollegiate Athletics champion-ship.

As part of the settlement agreement, Holmes, Hartley and Hightower agreed to be voluntarily exclud-ed
from direct participation in the Title IV programs. (Semiannual Report No. 36, page 28)

                                DIVERS INSTITUTE OF TECHNOLOGY
                                    John L. Ritter, president/owner
                                         Seattle, Washington
John Ritter, president/owner of Divers Institute of Technology, a Washington (state) corporation; his
wife, Doris Ritter; and the Divers Institute of Technology, Inc. (Divers), entered into plea and settle-ment
agreements. After pleading guilty, Divers was ordered to pay a $250,000 criminal fine and was placed
on five years probation. The school was also ordered to be sold to an independent party and that the
proceeds of the sale be used to pay the criminal fine and to pay ED in excess of $805,000. Divers also
agreed to pay a penalty up to $2.4 million, which represented three times the aggregate loss to the United
States.
This joint investigation by ED/OIG and the FBI developed evidence that Divers routinely submitted false
claims to the government by submitting Free Applications for Student Aid (FAFSAs) and Student Aid
Reports (SARs) containing falsified income information. Over an eight-year period, Divers submitted in
excess of 400 false claims to the Department.




                                                     24
                    FRANKLIN SCHOOL OF COSMETOLOGY AND HAIR DESIGN
                                Frank Cefaratti, president/owner
                                    Elizabeth, New Jersey
Frank Cefaratti, owner and president of Franklin School of Cosmetology and Hair Design, Elizabeth,
New Jersey, was indicted by a federal grand jury in Harrisburg, Pennsylvania. The indictment charged
Cefaratti with twenty counts of mail fraud, two counts of wire fraud, one count of money laundering, one
count of SFA fraud, and three counts of obstruction of justice.
Cefaratti has been accused of defrauding the Department in excess of $846,000 by participating in a
scheme that involved the submission of fraudulent student loan deferments, forbearances and pay-ments
to two student loan servicers in an effort to circumvent the Department’s student loan default reduction
laws and regulations. The indictment alleged that Cefaratti was able to lower Franklin’s cohort default
rate and thereby avoid ED sanctions that could have included limitation and termi-nation from federal
student financial assistance programs. At the time, Title IV funds accounted for more than 90 percent of
Franklin’s revenues.
The indictment further accused Cefaratti of engaging in the falsification of various other documents in
order to obtain federal student financial aid funds. Cefaratti was also charged with witness tampering for
allegedly instructing a Franklin employee not to make statements to federal agents and persuading a
second Franklin employee to make a false statement to federal agents. Additionally, Cefaratti has been
charged with removing evidence seized pursuant to a federal search warrant from a government
conference room.
The indictment is the first time a school owner has been charged with submitting fraudulent docu-ments
to manipulate the cohort default rate. The investigation is continuing.

                              CHARLOTTE CLINE, financial aid administrator
                                   American Weld Testing School
                                         Pasadena, Texas
Charlotte Cline, financial aid administrator at American Weld Testing School (AWT), Pasadena, Texas,
entered a plea of guilty before United States District Court, Southern District of Texas, Hous-ton
Division, to a one-count criminal information charging misprision of a felony with an underlying felony
of student loan fraud.
A joint ED/OIG-FBI investigation developed evidence that Cline became aware that the General Edu-
cation Development (GED) certificates in the files of two AWT students were identical except for the
students' first names. Cline knew that students were not entitled to Title IV funds without evidence that
they had obtained either a valid high school diploma or GED certificate. Knowing that the GED
certificates were false, Cline concealed them and did not expeditiously notify any authority of their falsity.

                                CRISTINO BURGOS-RODRIQUEZ, owner
                                    Interamerican Business College
                                         Humacao, Puerto Rico
Cristino Burgos-Rodriguez, owner of Interamerican Business College, pled guilty and admitted that he
submitted two fraudulent “cash on hand” certifications on ED/PMS 272 Reports to the Department and
that Pell grants in excess of $180,000 were drawn down from the Department on behalf of students who
were allegedly enrolled at a closed campus.
Burgos-Rodriguez had owned and operated Interamerican Business College since 1974. In 1992, he
changed the name of the school from Electronic College and Computer Programming, Inc. to Inter-
american Business College, which operated a main campus in Hato Rey, Puerto Rico, and two branch
campuses in Arecibo and Humacao. The investigation also disclosed that Burgos-Rodriguez failed to
refund in excess of $403,000 on behalf of students who had withdrawn or ceased attending the school.
(Semiannual Report No. 34, page 23)

                                                     25
                                   BEVERLY PURDIE, owner/president
                                 Samverly Barber and Hairstyling College
                                            Atlanta, Georgia
Beverly Purdie, president and owner of Samverly College, pled guilty to a one-count information
charging her with SFA fraud in the Northern District of Georgia. Investigation determined that from June
1992 to April 1996, Purdie embezzled over $140,000 in ED funds from the Pell Grant program by
drawing down Pell grants for students who had not completed the minimum number of hours or who had
withdrawn from school.

Beverly Purdie, along with her husband, owned and operated Samverly Barber and Hairstyling College in
Greenville, Mississippi from 1979 to 1986. The school participated in the Pell Grant program from 1984
to 1986. In 1986, an ED/OIG audit cited the school for disbursing Pell funds to ineligible stu-dents.
Subsequently, Beverly Purdie attempted to close out the school’s Pell account by providing the ED/OIG
auditor with a check, which was subsequently rejected due to insufficient funds. Later that year, the
school moved to Atlanta, Georgia. In 1991, Samverly College applied for and began partici-pating in the
Pell Grant program again. In 1992, a program review once again revealed that disburse-ments were made
on behalf of ineligible students. The school was cited again in 1995. In July 1996, ED/OIG agents
executed a search warrant at Samverly College.

                                   ROSE SPIVEY TARTER, owner
                               TYRUS C. YOUNG, certified public accountant
                                          Midwest Career College
                                           Indianapolis, Indiana
Rose Spivey Tarter, owner of Midwest Career College, pled guilty in the Southern District of Indiana to
one count of SFA fraud and was sentenced to six months home detention, followed by a period of five
years probation. She was ordered to pay restitution in the amount of $132,355..
A joint investigation between ED/OIG and the FBI determined that Tarter (formerly known as Rose
King) had purchased Midwest Career College in September 1995 under the corporate name Queen
Vocational Training, Inc. Tarter admitted that she embezzled over $132,000 in student loan funds from
October 1995 until February 1996. The loan funds consisted of first disbursements for students who
never reached the 30-day mark of school attendance and second disbursements for students who dropped
out before the mid-point of their school program.
Tyrus C. Young, a certified public accountant, pled guilty in the Southern District of Indiana, to one count
of conspiracy. Investigation revealed that Young created false loan documents in the amount of $115,000
with Tarter in an attempt to conceal the fact that Tarter was embezzling ED funds. Young was sentenced
to six months home detention and four years probation, and was fined $2,000.

                             DELORCE GEDRICH MURLEY, president/owner
                                      Idea Career Training
                                       Oak Park, Michigan
A consent judgment was filed in the Eastern District of Michigan in which Delorce Gedrich Murley, the
former owner and president of Idea Career Training in Oak Park, Michigan, agreed to pay resti-tution in
the amount of $82,335 to the Department. Investigation disclosed that Gedrich Murley failed to make
Pell Grant and student loan refunds on behalf of students attending her school. Idea Career Training has
since closed.




                                                    26
                                   GUYLA JANE BOORMAN, co-owner
                                         AJ’s Cosmetology School
                                           Winter Park, Florida
Guyla Jane Boorman, a co-owner of AJ’s Cosmetology School, pled guilty to a one-count information in
U.S. District Court, Middle District of Florida. ED/OIG investigation revealed that second dis-
bursements of Pell grants and direct loans in excess of $50,000 were obtained on behalf of ineligible
students. At the plea hearing, Boorman admitted that she instructed an employee at AJ's to submit
fraudulent documentation to ED in support of Pell and direct loan disbursements.


                                LAURA SMITH, former financial aid director
                                  American College for the Applied Arts
                                          Los Angeles, California
Two indictments were returned against Laura Smith by a grand jury in U.S. District Court, Central
District of California. One of the indictments charged Smith with one count of conspiracy and three
counts of loan fraud. The other indictment charged Smith with two counts of bankruptcy fraud. ED/OIG
agents subsequently arrested Smith.
According to the indictment, Smith, the former financial aid director at American College for the Ap-
plied Arts (ACAA), Los Angeles, CA, obtained PLUS loans totaling $39,074 for her friend, Roosevelt
Lee. Lee allegedly had two children attending ACAA. Investigation determined that the two indivi-
duals, Jefferson Brown and Derrick Long, were not his sons and were not attending ACAA. All but one
of the loans has defaulted.
During the investigation, information indicated Smith had debts discharged fraudulently in bankrupt-cy
proceedings in 1996. Investigation also revealed that Smith had attempted to file bankruptcy in 1994 as
well. The second indictment alleged that Smith failed to notify the court that she had earlier successfully
filed for bankruptcy in 1991. Smith’s actions allegedly also prevented foreclosure proceed-ings on her
condominium.

                                   CHARLES ROTH, executive director
                                       Flagler Career Institute
                                         Jacksonville, Florida
Charles Roth, former executive director of Flagler Career Institute, Jacksonville, Florida, pled guilty in
United States District Court, Middle District of Florida, Jacksonville Division, to one count of making
false declarations.
Flagler lost its ability to participate in the federal financial aid programs after the school’s accrediting
body, Accrediting Commission of Career Schools and Colleges of Technology, discovered that the school
was offering two courses that were not accredited. In response, Flagler filed a lawsuit earlier this year
against its accrediting body and asked a judge to issue a temporary injunction against the actions of the
accrediting agency. In support of the injunction request, Roth submitted affidavits and exhibits to the
court alleging that he had applied for accreditation in 1994 for each of the courses. Inves-tigation
determined that Roth had created and submitted to the court two fictitious checks, which purportedly
represented the application fees. The falsified checks were written on a Flagler account that was not open
at the time that the checks were allegedly mailed.




                                                    27
                         PAUL and SALVATORE SCARDINO, owners
                           JOSEPH ROBERTS, school chain manager
                              BERTHA CRAIG, school manager
               MYRON PETTY, BRAD JONES, GWENDOLYN KIRK, ROSA MERCADO,
                  THERESA DOBYNE, LACHANDRA PARKER, VAN SANDERS,
                 CAROLYN BALLARD, JESSICA BUSH, and GUADALUPE IBARRA
                              United Academies of Cosmetology
                          (Mid-America and Riviera Beauty Schools)
                                              Chicago, Illinois
Paul and Salvatore Scardino, owners of the United Academies of Cosmetology (Mid-America and Rivi-
era Beauty Schools), Chicago, Illinois, were each sentenced to 33 months incarceration and a subse-quent
probation period of three years. The brothers were also ordered to pay $1,300,000 restitution to ED.
They were also each fined $50,000 to pay for their incarceration. Both are permanently de-barred from
the SFA programs, pursuant to their plea agreements. To ensure payment of the resti-tution, the
Scardinos agreed to sell and quit claim the deeds of properties located in Chicago, Illinois and Phoenix,
Arizona to the United States .
In addition, Joseph Roberts, manager for United Academy Schools in Chicago, was sentenced to 24
months incarceration, followed by two years probation, and a fine of $10,000 for his participation in wire
fraud at Riviera Beauty School and Mid-America Beauty School. Bertha Craig, a school manager, was
sentenced to 18 months incarceration followed by three years of probation. Craig will be banned from
federal programs for a period of ten years. Craig, who was convicted by a federal trial jury, is appealing.
Recruiters Brad Jones, Myron Petty, Theresa Dobyne, Van Sanders, Carolyn Ballard, Gwedolyn Kirk and
Jessica Bush were all sentenced to a period of probation ranging from one to five years. Recruiters Jones
and Bush were fined $10,000 and $5,000, respectively. Financial aid officers Rosa Mercado, LaChandra
Parker and Guadalupe Ibarra were also sentenced to periods of probation for one to three years.
The sentencing and debarment of these individuals brings to a close a six year joint ED/OIG and U.S.
Postal Inspection Service investigation that disclosed a wide spread pattern of fraud involving the
processing applications for sham students; falsifying GEDs, high school diplomas and the results of
ability-to-benefit examinations; and the creation of fictitious attendance records for students who had left
the school after a minimum amount of time. The Pell Grant program was targeted for abuse after the
schools lost eligibility to participate in the student loan programs in 1990 because of a high default rate.
(Semiannual Report No. 33, page 18; Semiannual Report No. 34, page 32; and Semiannual Report No. 36,
page 32)


                               FINANCIAL AID CONSULTANTS
                                     SHEROLYN DENISE LARKIN
                                          Detroit, Michigan
Sherolyn Denise Larkin entered a guilty plea to one count of mail fraud in the Eastern District of
Michigan. The joint investigation by ED/OIG and the U.S. Secret Service revealed that Larkin, who
charged a fee ranging from $275 to $350, helped ineligible students obtain federal Pell and SEOG grants
by falsifying information on the students’ financial aid forms. In pleading guilty, Larkin admit-ted that
she also created false income tax returns that were provided to the schools for verification purposes. The
investigation has revealed that Larkin's fraudulent financial aid applications caused approximately 300
ineligible students to receive $1.7 million in Pell and SEOG grants. It is antici-pated that criminal and/or
civil charges will be filed against these students and their parents in the coming months. (Semiannual
Report No. 36, page 25)




                                                    28
                                        ERNEST DALE BLEAM
                                           Mulvane, Kansas
Ernest Dale Bleam, a fnancial aid consultant whose business card read “I start when you are told: Sorry,
you won’t qualify for financial aid,” pled guilty to one count of SFA fraud and one count of aiding and
abetting. In pleading guilty, Bleam admitted that he falsified financial aid applications and federal income
tax forms for his clients whom he charged a fee of 10% for first time applicants and 5% for subsequent
applications. Bleam continued to submit fraudulent applications even after ED/OIG and FBI agents had
executed a search warrant. Subsequently, additional search warrants were executed. Bleam was sentenced
to 21 months incarceration, two years supervised probation and ordered to pay a $5,000 fine.

          Civil Actions Against Bleam’s Clients
ED/OIG agents used the information seized in the first search warrant to send letters to all of Bleam’s
clients who received Federal Pell grants. These individuals were asked to either verify the information
provided on financial aid applications or state whether they knew false information had been submit-ted on
their behalf. The clients were offered an opportunity to sign a settlement agreement and pay back the
fraudulent financial aid funds along with a fine. As of the end of this reporting period, 256 of Bleam's
clients have entered into settlement agreements and have paid a total of $1,468,400.
This case received extensive media attention and the topic of consultants was featured on World News
Tonight with Peter Jennings. In addition, a number of major universities in Kansas and the surround-ing
states have expressed their appreciation to the United States Attorney's office for the action taken and the
deterrent value this case has had in the education community. (Semiannual Report No. 36, page 24)


                                 FOREIGN SCHOOLS PROJECT
                                 MOHAMMAD BILAL AFIF IBRAHIM
                               Universidad Catolica Madre & Maestra Pontificia
                                               Houston, Texas
 Mohammad Bilal Afif Ibrahim, a fugitive, was sentenced in absentia in the Southern District of Texas to
 46 months incarceration and five years supervised release, and was ordered to pay $370,000 restitution, a
 $20,000 fine, and a $4,200 special assessment fee. Ibrahim, who was indicted and convicted of twenty
 counts of student loan fraud, twenty counts of mail fraud, five counts of bank fraud, and one count of
 criminal forfeiture, has been a fugitive since an emergency appendectomy that was conducted two days
 after his trial began. The joint investigation between ED/OIG and the U.S. Postal Inspection Service
 determined that Ibrahim had received 22 loans totaling $407,000 in the names of five different family
 members, from five different banks and five different guaranty agencies.      Ibrahim used the funds to
 support a lavish lifestyle that included gambling throughout the United States. (Semiannual Report No.
 36, page 29)

                                        ROLLIE ROMERO-EATON
                                           University of Kent
                                          Boston, Massachusetts
 Rollie Romero-Eaton was sentenced in US District Court, Boston, Massachusetts, to a jail term of one
 year and one day for defrauding the Federal Family Education Loan Program of more than $140,000.
 Romero-Eaton was also ordered to serve a 36 month period of probation after his incarceration is
 completed. While on probation, Romero-Eaton will be required to make restitution of $140,000. The
 Court also ordered the criminal forfeiture of computer equipment that was purchased by Romero-Eaton
 with the proceeds of his criminal activity.
 Romero-Eaton, who was arrested by ED/OIG agents, pleaded guilty to mail fraud and other federal
 charges involving his fraudulent receipt of eight Federal Family Education Loans. He had obtained the
 loans by falsely stating that he was enrolled at the University of Kent in Canterbury, England. In

                                                    29
executing the scheme, Romero-Eaton forged the signatures of University of Kent officials on the
enrollment certification portion of the loan applications. (Semiannual Report No. 35, page 19)

                                SERGIO STOFENMACHER, former owner
                                       IADE American Schools
                                        Los Angeles, California
Sergio Stofenmacher, former   owner of IADE American Schools,, was extradited from Colombia, South
America, to Miami, Florida,   to face a federal trial for conspiracy, making false statements, embezzle-
ment, and money laundering.    This is the first time anyone was extradited in the history of the ED/OIG
and the first time Colombia   has extradited a defendant charged with stealing from the United States
Government.
Stofenmacher fled to Argentina in March 1995, following the execution of search warrants at his for-mer
schools by ED/OIG agents. He later traveled to Colombia, where the Colombian National Se-curity
Forces arrested him on an international arrest warrant. Stofenmacher had been in custody in Colombia
since he was arrested in December 1997.
Between 1989 and 1995, Stofenmacher and others allegedly embezzled in excess of $1 million from the
Pell Grant program by receiving funds for students who had withdrawn from or who had never attended
the school. Stofenmacher was indicted in January 1997. This case was worked through the combined
efforts of ED/OIG investigations and audit, the FBI and the U.S. Attorney’s Office for the Central District
of California. (Semiannual Report No. 34, pages 21-22)

                                           STEVEN VASSELL
                                    Ross University School of Medicine
                                                Dominica
Steven Vassell pled guilty to charges filed in U.S. District Court, Rochester, New York, which charged
one felony count of SFA fraud. He was sentenced to ten months incarceration and a period of three years
of probation. Vassell admitted to submitting a fraudulent application for Federal Family Edu-cation Loan
Program funds by using the identity of his former spouse. Vassell forged the school official signature on
the loan application thereby fraudulently certifying that his former spouse was enrolled at Ross University
School of Medicine in Dominica. Investigation revealed that Vassell had submitted several fraudulent
applications between 1996 and 1998. Not only did Vassell use multiple identities on these applications,
but he also claimed attendance at several different medical schools throughout the Caribbean. Vassell
attempted to obtain in excess of $92,500 in FFELP funds.
ED/OIG agents arrested Vassell when he attempted to accept delivery of fraudulent loan checks total-ing
$37,000. To date, our investigation has prevented the disbursement of $74,000 in funds to Vassell.

                                           GAIL ROBERSON
                                   American University of the Caribbean
                                        Poughkeepsie, New York
A federal grand jury in White Plains, New York indicted Gail Roberson on one count of mail fraud. The
indictment alleged that Roberson submitted a fraudulent FFELP application on which she fraudu-lently
claimed to be enrolled in medical school at the American University of the Caribbean, St. Maarten.
ED/OIG investigation also developed evidence that Roberson, who has never been enrolled as a student at
the school, allegedly used several identities in applying for in excess of $80,000. Our investigation
prevented the disbursement of $55,000 to Roberson.




                                                   30
                                    ROBERT ANTHONY DOYLEY
                                 ROCHELLE ANDERSON DOYLEY
                                               Kings College
                                University of London Institute of Psychiatry
                                             London, England
Robert Anthony Doyley, a Child Protective Services case worker, and his wife, Rochelle Anderson
Doyley, were indicted by a federal grand jury in the Southern District of Texas, Houston, Texas, on one
count of conspiracy and 10 counts of student loan fraud. Allegedly, Robert Anthony Doyley falsely
certified that he was enrolled in a medical school in London, England by forging the school offi-cial's
signature on 10 student loan applications. Loan funds totaling $70,500 were deposited into the Doyleys’
joint checking account. At the time the investigation was initiated, the disbursement of five additional
loans was cancelled.

                                    MICHAEL ESTES MCSHEEHY
                                           Ross University
                                      Fort Walton Beach, Florida
Michael Estes McSheehy pled guilty to a three-count indictment charging him with student financial
assistance fraud and was sentenced to 11 months incarceration. Upon completion of his jail sentence,
McSheehy must complete three years of probation, pay restitution in excess of $22,000 and complete an
alcohol rehabilitation program. McSheehy, who had been indicted by a federal grand jury in Rochester,
New York, admitted to submitting fraudulent student loan applications for claimed attendance at Ross
University. The loan applications contained false statements with regard to enrollment, identity and the
nature of his previous student loan indebtedness. McSheehy obtained $61,000 in loan funds.

                                        JACQUES METELLUS
                                Universidad Federico Henriquez Y Carvajal
                                          Baltimore, Maryland
ED/OIG agents in Baltimore, Maryland arrested Jacques Metellus after a criminal complaint was issued
in U.S. District Court, Rochester, New York. Allegedly, Metellus fraudulently obtained $37,000 in
Federal Family Education Loan funds for purported attendance at a medical school in the Dominican
Republic.
                                           HENRY BRUTUS
                                Universidad Federico Henriquez Y Carvajal
                                             El Paso, Texas
Henry Brutus, Jr. pled guilty to a one-count felony criminal information filed in U.S. District Court,
Rochester, New York. Brutus admitted that he falsely claimed to be enrolled in medical school in the
Dominican Republic and that he forged the signature of the medical school's director on FFELP appli-
cations. ED/OIG agents arrested Brutus when he attempted to accept delivery of fraudulent loan checks.
Brutus was sentenced to six months home detention, five years probation and ordered to pay restitution of
$18,500.




                                                    31
                               OTHER INVESTIGATIVE CASES
The Default Project identified students who obtained federal student financial aid while being in default
on previously obtained student loans. Four such cases were recently settled in the Western District of
Oklahoma, Oklahoma City, Oklahoma. These settlements resulted in recoveries totaling $51,460 plus
interest and court costs. An additional case was settled in the Northern District of Indiana.

                                     JACQUELINE J. CHEATHAM
Jacqueline J. Cheatham was charged with making false claims and common law fraud, and was ordered to
repay $25,075 to the United States government.

                                          JUDITH A. MORSE
Judith A. Morse was charged with making false claims, common law fraud, and unjust enrichment.
Morse was ordered to repay $20,385 to the United States government.

                                        DEBORAH L. HENSON
Deborah L. Henson was charged with making a false claim and was ordered to repay $5,000 to the United
States government.

                                           LAUREL F. BAIRD
Laurel F. Baird was charged with making a false claim and was ordered to repay $1,000 to the United
States government.

                                       LOUIS ENRIQUE CABAN
Louis Enrique Caban was charged with making a false claim and was ordered to pay $4,380 to the United
States government.

           CORINTHIAN SCHOOLS, INC, d.b.a. BRYMAN COLLEGE OF NEW ORLEANS
                           (formerly National Education Center)
                                          New Orleans, Louisiana
Corinthian Schools, Inc. entered into a settlement agreement with the United States following a vol-
untary notification of fraudulent activities at Bryman College of New Orleans. Investigation con-firmed
that forged financial aid documents were submitted to the Department for processing on behalf of three
students and in excess of $13,000 was received at the school for these students. As part of the settlement
agreement, Corinthian Schools, Inc. agreed to pay double damages under the False Claims Act.
Subsequently, a lump sum payment of $26,094 has been made.

                                    HAROLD DONALD BURNSIDE
                                             Cleveland, Ohio
Harold Donald Burnside entered into a consent judgement in the Northern District of Ohio. ED/OIG
investigation revealed that Burnside misused his brother’s Social Security number to obtain SFA funds.
Burnside, who was charged with submitting false claims to the government, has agreed to make
restitution totaling $5,500.




                                                   32
                                           LISA M. HOLK
                                           Conneault, Ohio
Lisa M. Holk entered into a consent judgment in the Northern District of Ohio. Holk was charged with
submitting false claims to the government and was ordered to pay restitution of $6,520.

                                  ROBERT REHM, special assistant
                                   GORDON MCCLEER, teacher
                             New York City Community School Board #14
                                          Brooklyn, New York

Robert Rehm, the former special assistant to the superintendent of the New York City Community School
Board #14, and Gordon McCleer, a teacher, were arrested by ED/OIG agents after complaints were issued
charging them both with embezzlement. McCleer was also charged with aiding and abet-ting. Both have
pled guilty to the respective charges in U.S. District Court in the Eastern District of New York.
Rehm and McCleer participated in a scheme to defraud the Title I program. Specifically, funds which
were earmarked for eligible employees of the Beth Rachel School for Girls, a parochial school in Brook-
lyn, were disbursed on behalf of no-show employees and employees who were performing proscribed
functions. The investigation, which was conducted by ED/OIG, the U.S. Postal Inspection Service and
the Office of the Special Commissioner for the New York City Board of Education, is continuing.

                              HELMY QURTOM & SAWSAN KURTOM
                                      Beltsville, Maryland
Helmy Qurtom and his wife, Sawsan Kurtom, of Beltsville, Maryland, each pled guilty to one count of
theft of government property in U.S. District Court in Greenbelt, Maryland. By using false Social
Security Numbers, Helmy Qurtom fraudulently obtained Pell grants for his children who would not have
other wise been eligible for the aid because of his income as a physician. This joint ED/OIG, Social
Security Administration (SSA)/OIG, Immigration and Naturalization Service (INS) and State of
Maryland investigation further disclosed that Sawsan Kurtom fraudulently obtained food stamps to which
she was not entitled. Jointly, the couple fraudulently obtained $118,932, which they agreed to repay in
full before sentencing. Valuable evidence, including large amounts of cash and jewelry, was obtained
during the execution of a search warrant at the couple's residence.

                               TRINA THOMPSON, former bookkeeper
                         Northwest Inter-Tribal Education and Training Board
                                          Seattle, Washington
Trina Thompson, former bookkeeper of the Northwest Inter-Tribal Education and Training Board
(NWIT), pled guilty in U.S. District Court, Seattle, Washington, to one count of embezzlement.
Thompson was sentenced to one year and one day in prison, three years supervised probation, and ordered
to make restitution of $110,000.
NWIT received Rehabilitative Service Administration funds (RSA) for the education and job training of
Native Americans. As the bookkeeper for NWIT, Thompson embezzled $110,000 in RSA funds by
issuing NWIT checks to herself. Thompson deposited the checks into her own checking account and then
made false entries into the NWIT accounting system in an attempt to conceal her wrongdoing.
Additionally, she either forged signatures or requested members of NWIT's board to sign blank checks.
Two members of NWIT spoke at Thompson’s sentencing and requested the maximum sentence since
NWIT lost their ability to receive RSA funds as a result of Thompson’s fraud. Thompson used the
money for gambling, drugs, travel and to aid her family.




                                                  33
                                          TERESA BEARPAW
                                          Washburn University
                                            Topeka, Kansas
A federal grand jury in the District of Kansas indicted Teresa Bearpaw on 18 counts of SFA fraud. A
joint investigation with the SSA/OIG substantiated allegations that Bearpaw fraudulently obtained
approximately $48,500 in Title IV funds while attending Washburn University (WU), Topeka, KS, from
1992 to 1996. Bearpaw, who pled guilty to one count of SFA fraud, submitted applications for student
aid that had a false Social Security number and did not disclose a previously defaulted loan.

                                          MICHAEL EASTON
                                            Houston, Texas
Michael Easton, aka Michael Bitgood, was charged in the Southern District of Texas (Houston) in a
federal indictment with five counts of SFA fraud and fifteen counts of mail fraud. This joint ED/OIG and
FBI investigation developed evidence that Easton, using the name Michael Bitgood, defaulted on a
student loan after using a false Social Security Number. Subsequently, the indictment alleged that he
changed his last name from Bitgood to Easton. He applied for and obtained Title IV funds by using his
true SSN and without disclosing that he had previously defaulted on a student loan under a different name
and false SSN. The investigation disclosed that between August 1991 and September 1997, Easton
allegedly submitted eight fraudulent applications for student financial aid totaling ap-proximately $42,000
to attend the University of Houston, Central and Downtown campuses.

                            GABRIEL O. WORDU and GABRIEL D. WORDU
                                       Ft. Lauderdale, Florida
Gabriel O. Wordu and Gabriel D. Wordu were indicted by a federal grand jury in separate indictments in
the Southern District of Florida, Ft. Lauderdale, Florida, on three counts of bank fraud and principals.
ED/OIG investigation developed evidence that these Nigerian nationals were brothers who applied for
student loans at several universities in the South Florida area using multiple fictitious names, Social
Security Numbers, dates of birth, and driver license information. The indictment alleged that once the
student aid checks were obtained, the Wordu brothers would then forge the endorsement of the
educational institution as the co-payee on the student aid checks. Both indivi-duals would also use their
bogus driver's licenses to negotiate the student loan checks. The defendants are alleged to have
unlawfully obtained in excess of $34,000.          Arrest warrants have been issued for the defendants.
ED/OIG is working with various other federal law enforcement agencies to locate these two fugitives.

                                            WENDY McCOY
                                            Phoenix, Arizona
A federal grand jury returned a four count indictment against Wendy McCoy, aka Wendy Miller, in the
District of Arizona. The indictment alleged that McCoy used her ex-husband's Social Security Number to
obtain grants and loans while she attended two colleges in Arizona. McCoy, who was charged with two
counts of SFA fraud and two counts of Social Security fraud, obtained in excess of $21,000 in ED grants
and loans.

                                         DARREN CARTER
                                      Montgomery County, Maryland
Darren V. Carter was indicted in the Circuit Court of Montgomery County, Maryland, on four counts of
unlawful possession of a credit card number and two counts of theft. Investigation disclosed that Carter,
a former ED contract employee, fraudulently used a Departmental IMPAC credit card to purchase a
computer and computer-related equipment over the telephone from a vendor in Illinois. Carter has been
terminated from his position in the Department as a photocopier.



                                                   34
                                   JACOB DENEDO, member, U.S. Navy
                                       Bethune-Cookman College
                                        Daytona Beach, Florida
Jacob Denedo, an active duty member of the U.S. Navy, was tried and found guilty by a Special Court-
Martial in Jacksonville, Florida for his role in a scheme at Bethune-Cookman College, Daytona Beach,
Florida. An ongoing joint ED/OIG, U.S. Secret Service and Daytona Beach Police Department investi-
gation revealed that Denedo forged and negotiated 19 stolen refund checks from Bethune-Cookman
College. Denedo received a fee of $200 for each check. Denedo was sentenced to three months
confinement, a pay-grade reduction and a bad conduct discharge from the U.S. Navy.
A second individual entered into the pre-trial diversion program in the State of Florida for his role in
negotiating forged refund checks. The individual was sentenced to three years probation, 100 hours of
community service and ordered to pay $8,150 in restitution.

                                          QUEENILLA KONAH
                                           Boston, Massachusetts
A Suffolk County, Massachusetts, grand jury returned a 28-count indictment charging Queenilla Konah
with forgery, attempted larceny, filing false police reports, uttering, and fraudulent use of credit cards.
Allegedly, Konah assumed the identity of another individual when she applied for SFA funds at
Northeastern University in Boston. Investigation disclosed that Konah may have made similar at-tempts
to receive federal student financial aid at Simmons College and Newbury College, also located in Boston.
A search warrant executed at Konah’s dormitory room at Northeastern University resulted in the seizure
of evidence of other identities utilized by Konah.

                             JACQUELINE WARREN, administrative assistant
                             Office of the Secretary’s Regional Representative
                                              Chicago, Illinois
Jacqueline Warren, administrative assistant in the Office of the Secretary’s Regional Representative in
Chicago, was indicted in Chicago, Illinois, on nine counts of wire fraud and one count of mail fraud. The
investigation developed evidence that Warren unlawfully used a Department IMPAC Visa credit card to
purchase $6,791 worth of goods and services for her personal use and consumption.
The indictment also alleged that Warren fraudulently obtained credit cards and loans for her personal use
from various creditors by submitting written applications with a false Social Security Number and failing
to disclose that she had previously declared bankruptcy. Subsequently, it is alleged that Warren incurred
unpaid debts for which she sought discharge by filing a second petition with a false Social Security
number and in which she again falsely represented that she had not previously filed for bankruptcy. As a
result of this petition, the bankruptcy court ordered the discharge of debts totaling approximately $16,369.

                                         MINH TRONG HOANG
                                           Seattle, Washington
Minh Trong Hoang, aka Mingo, was indicted on one count of false statements involving an appli-cation
for SFA funds. This joint investigation by the IRS and ED/OIG produced evidence that Hoang submitted
a falsified 1992 income-tax return, in which he falsely reported his income, to support his son’s
application for federal student aid. A second indictment charged Hoang with five additional counts,
including conspiracy; applying for appointed counsel under the Criminal Justice Act while knowingly
submitting a request containing false material; falsifying an individual income tax return; making false
material declarations before a magistrate judge; and executing and attempting to execute a scheme to
defraud a mortgage broker. Hoang was sentenced to 90 days in jail to be followed by 90 days of home
detention and five years probation. Hoang will be required to wear an electronic moni-toring device
during his period of home detention.

                                                    35
                           RAFAEL RAFCA, former financial aid officer
                       ENRIQUE GONGORA, JORGE DIAZ, TANIA DIAZ,
                   GLADYS YEAR, MIRTHA CHICA DUQUE & LETICIA VALDES
                                Politechnical Institute of Florida
                                             Southern Florida
Six of eight individuals have entered changes of plea in U.S. District Court, Southern District of Florida
for their part in a scheme to fraudulently obtain $268,000 in PLUS loans. The mastermind of the
scheme, Rafael Rafca, pled guilty to one count of conspiracy and thirteen counts of bank fraud. Rafca, a
former financial aid officer at Politechnical Institute of Florida provided the school codes of at least
eleven colleges and universities in the Southern Florida area to others for submission on PLUS loan
applications. Rafca and the others named in the indictment used non-existent financial aid offi-cers as
certifying officials as well as false names and Social Security numbers on the loan applications.
Enrique Gongora pled guilty to one count of conspiracy and 7 counts of bank fraud. He was sentenced to
three months home detention to be followed by three years of probation and ordered to make restitution of
$52,000. Tania Diaz and Jorge Luis Diaz each pled guilty to one count of conspiracy. Jorge and Tania
Diaz were each sentenced to five years probation and ordered to pay $44,000 in restitution.
Gladys Yera and Mirtha Chica Duque, who had both previously pled guilty, were sentenced in U.S.
District Court in the Southern District of Florida. Yera, who was given credit for time served, was
ordered to spend one month in jail followed by a period of house arrest for six months. Yera, who will
have to wear an electronic monitoring device, was ordered to pay approximately $4.95 per day for the
device. She will also serve a three year probation period and must make restitution of $64,000. Duque
was sentenced to one month in jail and a probation period of three years. Duque must also pay restitution
in the amount of $12,000.
After a three day trial in the Southern District of Florida, a seventh individual, Leticia Valdes, was
convicted by a federal trial jury on one count of conspiracy and two counts of bank fraud for her role in
the scheme. Valdes received PLUS loans totaling $8,000. She is awaiting sentencing.
One individual, Kary Silva, remains at large. ED/OIG agents have a warrant for her arrest and are cur-
rently attempting to locate her. (Semiannual Report No. 36, page 25)

                           DANIEL R. BANUELOS, certified public accountant
                                       THOMAS LALLEY
                                   Oglala Lakota College (OLC)
                                            Kyle, South Dakota
Daniel R. Banuelos, a certified public accountant, pled guilty in the Western Division for the District of
South Dakota to a one count information charging embezzlement from an Indian tribal organi-zation.
Banuelos was engaged by Oglala Lakota College, Kyle, South Dakota, from 1991 to 1994 to conduct the
school's audits. The charge related to Banuelos' role in the conversion of federal funds for his personal
use and the use of others. A joint ED/OIG/FBI/IRS/Department of the Interior OIG investigation
developed evidence that from 1991 to 1994 a total of $2.6 million dollars in federal funds was embezzled
from Oglala Lakota College (OLC) which included Department funds. The conspiracy involved at least
five other individuals (previously reported) who caused OLC checks to be drawn and deposited into bank
accounts of fictitious businesses.
Thomas P. Lalley, owner of Theodore's Bar and Grill, was charged in a two-count indictment for
conspiracy to commit money laundering. Lalley allegedly conspired with officials at OLC to cash checks
for them knowing the fraudulent origin of such instruments. The indictment stated that Lalley laundered
$563, 904 in illegally obtained proceeds from OLC and another $29,157 fraudulently en-dorsed with the
payees' signatures. Lalley received 20 to 30 percent of the proceeds as a fee for nego-tiating, depositing
and converting to cash the instruments that were presented to him by OLC officials. (Semiannual Report

                                                   36
No. 34, page 22; Semiannual Report No. 35, pages 31 & 32; and Semiannual Report No. 36, pages 31
&32)

                                 DAVID SCHRADER, owner and operator
                             Arizona Academy of Medical & Dental Assistants
                                           Flagstaff, Arizona
David Schrader, owner and operator of the Arizona Academy of Medical & Dental Assistants in
Flagstaff, Arizona, pled guilty in the U.S. District Court in Arizona to three counts of SFA fraud. He was
sentenced to 21 months incarceration, ordered to pay $357,136 in restitution, and fined $150. Schrader
was indicted in February 1997 on one count of conspiracy, three counts of mail fraud and 27 counts of
SFA fraud. OIG investigation disclosed that Schrader and Geraldine Thompson, his financial aid officer,
had certified loans for students at an ineligible campus, and had failed to refund loan and grant funds for
students who had graduated or who did not finish the course. (Semiannual Report No. 34, page 23)

                                 VICKI GOODSON, bookkeeper/secretary
                                 Montgomery County Board of Education
                                        Montgomery, Alabama
Vicki Goodson, a secretary at the Montgomery County Board of Education, was sentenced to serve
eighteen months in federal prison and three years of probation. Goodson who had earlier pled guilty to
four counts of theft of program funds, was also ordered to pay restitution totaling $321,474. Inves-
tigation disclosed that Goodson embezzled 87 vendor checks and used the funds for her own personal
gain. Goodson embezzled funds from the Title I, Chapter I, Drug Free, Goals 2000 and Adult Education
programs. (Semiannual Report No. 36, page 29)


                                         ROBERT PRELL, owner
                                         Northwest Beauty School
                                           Baltimore, Maryland
Robert Prell, owner and operator of the Northwest Beauty School, Baltimore, Maryland, pled guilty to
bribery of public officials and witnesses. Prell paid an undercover OIG agent $3,000 to reduce the
number of findings in a program review audit report so that his school would remain eligible for Title IV
funding. Prell was indicted and arrested in August 1997. He was sentenced to one year of pro-bation,
200 hours of community service, and a $2,000 fine.


                                          GEORGE I. CONROY
                                           Newark, New Jersey
George I. Conroy pled guilty and was sentenced in U.S. District Court, Newark, New Jersey, to one year
of home detention, five years probation, 500 hours community service, and restitution of $335,000.
ED/OIG investigation determined that Conroy embezzled federal funds from Johnson C. Smith
University (JCSU) in Charlotte, North Carolina. The scheme Conroy used against JCSU was similar to
the fraud scheme that he perpetrated against the five colleges that comprised the now defunct Piedmont
Independent College Association of Greensboro, North Carolina. For that scheme, Conroy was convicted
in May 1996 of embezzling funds from the Title III grant program. (Semiannual Report No. 33, page 25)




                                                   37
                          ROBERT L. PATTERSON, U.S. Postal Service employee
                            Northern Indiana Student Loan Default Project
                                           Gary, Indiana
Robert Patterson, a U.S. Postal Service employee, was sentenced in U.S. District Court to four months
incarceration. Upon release from jail, Patterson was ordered to serve an additional four months home
detention to be followed by a one year period of supervised probation. Patterson must also pay resti-
tution exceeding $54,000. Patterson had previously admitted obtaining SFA loans and grants by con-
cealing prior defaulted student loans and using his nephew's Social Security number. (Semiannual Report
No. 36, page 30)

                                  SHARON LOUISE ALDRIDGE, student
                                    WILLETTE LIPSCOMB, student
                                     Huston-Tillotson College (HTC)
                                             Austin, Texas
Sharon Louise Aldridge, a student at Huston-Tillotson College (HTC), Austin, Texas, pled guilty to a
two-count information charging her with false statements. Aldridge was sentenced to five years of
probation and ordered to pay $25,000 in restitution. Willette Lipscomb, a former student at HTC, pled
guilty to a one count information charging her with misprision of a felony. Lipscomb was sentenced to
three years probation and order to pay $3,500 in restitution.
An OIG investigation involving Connie Anne Freeman, former HTC associate financial aid director,
disclosed that Freeman conspired to fraudulently obtain SFA funds totaling $25,000 with Aldridge and
$3,500 with Lipscomb. The investigation disclosed that Aldridge obtained student loan proceeds by
using a fictitious name and another individual's Social Security number. Investigation also disclosed that
Aldridge admitted to soliciting kickbacks from students and employees at HTC as part of a fraud ring
totaling $193,717 in illegally obtained funds. (Semiannual Report 36 pages 26 & 27)

                                 MARY JANE SHRADER, former registrar
                                  SHIRLEY LYBRAND, former registrar
                                      Romar International, Inc.
                                          Titusville, Florida

Two former registrars employed by Romar International, Inc., Titusville, Florida, pled guilty to bank
fraud for their role in a scheme that falsely certified ineligible students for financial aid on student loan
applications. Mary Jane Shrader admitted that she falsely certified student loan applications for four
students, which resulted in the disbursement of approximately $12,000. Lybrand admitted that she falsely
certified nine loan applications valued in excess of $40,000.         Shrader was sentenced to one year of
probation and ordered to serve twenty-five hours of community service. Shrader must also pay restitution
of $1,313. Lybrand is scheduled to be sentenced during the next reporting period.
The fraud amounts attributed to Shrader and Lybrand are part of an overall bank fraud scheme valued in
excess of $800,000.00. Four other former registrars have previously been sentenced for their role in this
scheme. The registrars have advised that it was a common practice to make ineligible students eligible
for enrollment in order to qualify for federal aid. (Semiannual Reports No. 35, page 22 and Semiannual
Report No. 36, page 34)

                                            GREGG M. STUM
Gregg M. Stum was sentenced in Federal District Court, Wilmington, Delaware, to two years of
probation, and was ordered to pay restitution of $30,000. Stum pled guilty earlier this year to an
information charging him with one count of mail fraud. A joint investigation by ED/OIG, HHS/OIG and
the U.S. Postal Inspection Service disclosed that Stum had entered into contracts with and sub-mitted
identical research reports to the Department and the National Institute of Health. Stum had obtained
funding for the studies from both agencies. (Semiannual Report No. 36, page 25)
                                                    38
                                         TALMADGE GRAHAM
                                           St. Louis, Missouri
Talmadge Graham was sentenced to sixteen months in prison, three years probation, and was ordered to
pay restitution in the amount of $25,276. Graham who had earlier entered a plea of guilty to one count of
a four-count indictment charging SFA fraud, had applied for approximately $90,320 in federal student
loans at Webster University (WU), St. Louis, Missouri, by submitting false under-graduate transcripts
using his real name and four other assumed identities. The false transcripts allowed Graham to enroll at
WU and obtain graduate-student status. ED/OIG and FBI agents arrested Graham at WU in February
1998 when he attempted to receive a student loan disbursement check using one of the false identities.
(Semiannual Report No. 36, page30)

                                     PRISCILLA ANN HAMILTON
                                          DEBRA BRADFORD
                                    Los Angeles tax and loan fraud ring
                                          Los Angeles, California

Priscilla Ann Hamilton, the former owner of Priscilla’s Professional Services, was sentenced to 71
months in federal prison. Hamilton pled guilty to several tax and loan charges and was later convicted on
an additional 25 Federal felonies. During the sentencing, the judge remarked that Hamilton show-ed "no
remorse whatsoever" and that she "manipulated all those around her, including her codefendant and her
own children."
Codefendant Debra Bradford, who was previously convicted of conspiracy and tax fraud, pled guilty to
bank fraud in connection with filing false federal PLUS loan applications.
Bradford was scheduled to be sentenced on these charges when her attorney filed a petition for a
continuance, at which time the government requested and obtained a status conference with the pre-siding
judge. Bradford was subsequently indicted for and pled guilty to resisting a federal officer. She was
sentenced to 40 months in prison to be followed by a three-year period of probation. (Semiannual Report
No.35, pages 23-24)

                                 ST. LOUIS COLLEGE OF PHARMACY
                                           St. Louis, Missouri
Nine individuals fraudulently received student loans at the St. Louis College of Pharmacy even though
they were not students there. This occurred when Cynthia Jackson, former Financial Aid Department
Secretary, falsely certified their student loan applications. Jackson was previously charged and sentenced
regarding the false certifications.
The nine individuals all signed pretrial diversion agreements acknowledging that they fraudulently
received student loan funds. Total restitution ordered under the agreements was $74,354. (Semiannual
Report No. 36, page 26)

                       TEE A. LEWIS and KATRINA E. WEST, former employees
                                     Delaware State University
                                         Dover, Delaware
Tee A. Lewis, former associate director of financial aid, and Katrina E. West, former financial aid officer
at Delaware State University, each pled guilty to a one-count information. Lewis was sentenced to six
months home detention to be followed by five years of probation. Lewis was ordered to wear an
electronic monitoring device during the home detention period. West was sentenced to three years
probation. This joint ED/OIG and FBI investigation found that West and Lewis falsified loan appli-
cations and financial aid eligibility forms in order to obtain federally guaranteed student loans to which
they were not entitled. The investigation disclosed that Lewis received at least $20,000 of ineligible loans
                                                     39
and West received in excess of $26,000 of loan funds. Lewis and West were termi-nated from their jobs
by the university. (Semiannual Report No. 36, page 26)

                                           FOLLY KUEGAH
                                           New York, New York
Folly Kuegah, who previously pled guilty to obtaining SFA funds under a false identity and passport
fraud, was sentenced in the Southern District of New York, to three years probation and ordered to pay
full restitution. Kuegah submitted the fraudulent applications while attending Technical Careers Institute.
(Semiannual Report No. 36, page 30)

                        CAMILLE AYALA PITTERSON, former executive director
                                 Virgin Islands Advocacy Agency
                                   St. Croix, U.S. Virgin Islands
Camille Ayala Pitterson was sentenced to a one-year period of probation and ordered to make resti-tution
of $6,888 in U.S. District Court, U.S. Virgin Islands. Pitterson, who was the executive director of the
Virgin Islands Advocacy Agency, used ED and HHS funds earmarked for disabled residents on the
Virgin Islands for her own use including the purchase of airline tickets for relatives and close friends.
(Semiannual Report No. 36, page 27)

                                       SHARON D. ARNEY, owner
                                           Cranford College
                                          Hutchinson, Kansas
Sharon Arney, who had previously pled guilty to five counts of SFA fraud, was sentenced in U.S. District
Court, Topeka, Kansas to six months home detention to be followed by four years of pro-bation. She was
also ordered to pay a fine of $10,000 and restitution of $4,188. A joint ED/OIG and FBI investigation
determined that during the 1990, 1991 and 1992 academic years, Arney failed to make refunds in excess
of $146,000 on behalf of students that had ceased attending or withdrew from Cranford College.
(Semiannual Report No. 36, page 24)

                                        KANJADDIE BLAND
                                   Chicago PLUS loan fraud scheme
                                           Chicago, Illinois
Kanjaddie Bland pled guilty in the Northern District of Illinois to one count each of mail fraud and SFA
fraud and was sentenced to four years probation. Bland was ordered to pay restitution of $2,885 as well.
A fugitive for the last seven years, Bland was indicted in 1991 for her involvement in the Chicago PLUS
loan fraud scheme. An ED/OIG investigation developed evidence that Bland fraudu-lently received a
PLUS loan check for $2,885 in 1986.




                                                   40
                               RECOMMENDATIONS DESCRIBED IN PREVIOUS SEMIANNUAL REPORTS
                                 ON WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

Section 5(a)(3) of the Inspector General Act requires a listing of each report resolved before the commencement of the reporting period for which management
has not completed corrective action. The reports listed below are OIG internal and nationwide audit reports and management improvement reports.

                                                                                                                                         TOTAL            SEMIANNUAL
REPORT                                                                                                                    DATE         MONETARY             REPORT
NUMBER      AUDITEE/TITLE                                                                                               RESOLVED        FINDINGS           NO. PAGE

OFFICE OF ELEMENTARY AND SECONDARY EDUCATION
11-20202    CHANGES TO IMPACT AID PROGRAMS' SITE REVIEW PROCESS SHOULD                                                    09/30/94       4,382,000             26   85
             IMPROVE EFFICIENCY AND ASSURE BETTER USE OF PROGRAM FUNDS
09-38259    THE DEPARTMENT SHOULD EVALUATE THE NEED FOR ANNUAL CHILD COUNTS                                               09/30/97           *                 31   09
             IN THE IMPACT AID PROGRAM


OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES

03-50201    COORDINATION AND COLLABORATION WITHIN THE OFFICE OF SPECIAL                                                   09/30/97           *                 34   18
             EDUCATION AND REHABILITATIVE SERVICES TO BETTER SERVE
             CUSTOMERS AND MANAGE PROGRAMS


OFFICE OF POSTSECONDARY EDUCATION

11-00010    OFFICE OF STUDENT FINANCIAL ASSISTANCE DID NOT ASSURE THAT ALL INSTITUTIONS                                   09/30/93       33,800,000            24   63
             SUBMITTED AUDIT REPORTS OR THAT IT RECOVERED ALL MISSPENT FUNDS
11-90040    THE INSTITUTIONAL ELIGIBILITY PROCESS DOES NOT PROVIDE ADEQUATE ASSURANCE                                     09/30/93        482,000              22   6
             THAT ONLY ELIGIBLE SCHOOLS PARTICIPATE IN THE TITLE IV PROGRAMS
92-05**     ED NEEDS TO STRENGTHEN STUDENT LOAN CURE PROCEDURES                                                           09/30/93      154,000,000            24   12
92-10**     STRICTER STANDARDS NEEDED FOR GRANTING OF FORBEARANCES                                                        09/30/93           *                 25   3
92-13**     ED NEEDS TO CHANGE THE LEGISLATIVE DEFINITION OF LOANS IN REPAYMENT                                           01/31/94           *                 25   5
05-20075    EFFECTIVENESS OF THE REGIONAL INSTITUTIONAL REVIEW BRANCHES' MONITORING OF                                    08/31/94           *                 28   19
             INSTITUTIONS PARTICIPATING IN THE STUDENT FINANCIAL ASSISTANCE PROGRAMS
17-30302    FINANCIAL AUDIT: FEDERAL FAMILY EDUCATION LOAN PROGRAM'S FINANCIAL STATEMENTS                                 10/31/94           *                 29   16
             FOR FISCAL YEARS 1993 AND 1992
11-30001    INCONSISTENT INSTITUTIONAL PELL GRANT REPORTING RESULTS IN SIGNIFICANT                                        07/31/95           *                 29   15
             EXPENDITURE DISCREPANCIES
04-40100    HELPING TO ASSURE EQUALIZED EDUCATIONAL OPPORTUNITIES WITH HEA, TITLE III                                     08/31/95           *                 31   11
             INSTITUTIONAL AID FUNDS - GLOBAL PERFORMANCE MEASURES NEEDED
17-30305    ANNUAL INTEREST GRANTS: IMPROVING THE PROCESS FOR PAYING THE REMAINING                                        02/29/96       5,025,272             31   14
             GRANTS
11-40001    FOLLOW-UP REVIEW ON SELECTED GATEKEEPING OPERATIONS                                                           02/29/96           *                 31   13
05-40005    ED NEEDS TO CONSIDER IMPLEMENTING CHANGES FOR MONITORING                                                      03/31/96           *                 32   10
             LENDERS AND SERVICERS
05-50008    EFFECTIVENESS AND EFFICIENCY OF DEBT COLLECTION SERVICE - AREAS RELATED                                       04/30/96           *                 32   12
             TO INTERNAL OPERATIONS
04-38000    LESSONS LEARNED FROM RTC=S HANDLING OF FEDERAL FAMILY EDUCATION LOANS ...                                     08/31/96           *                 32   9
04-60001    PROCESS ENHANCEMENTS IN THE HEA, TITLE III, INSTITUTIONAL AID PROGRAM                                         08/31/96           *                 32   9
             WOULD INCREASE PROGRAM EFFICIENCY, DESPITE LIMITED RESOURCES
                                                                                                                   TOTAL       SEMIANNUAL
REPORT                                                                                                 DATE      MONETARY        REPORT
NUMBER      AUDITEE/TITLE                                                                            RESOLVED     FINDINGS      NO. PAGE

06-30004    MANAGING FOR RESULTS: REVIEW OF PERFORMANCE-BASED SYSTEMS AT                              08/31/96       *           31    7
             SELECTED ACCREDITING AGENCIES
07-48051    CLOSED SCHOOLS: $2.4 BILLION UNAUDITED                                                    06/30/96       *           31   13
06-50010    THE ELECTRONIC DATA EXCHANGE: A SECURITY REVIEW IS NEEDED                                 12/31/96       *           33   12
03-60001    REVIEW OF THE MANAGEMENT SYSTEMS AND STRUCTURE OF THE U.S. DEPARTMENT OF EDUCATION,       03/31/97       *           33   29
             OFFICE OF POSTSECONDARY EDUCATION, OFFICE OF STUDENT FINANCIAL ASSISTANCE PROGRAMS
09-38058    THE DEPARTMENT SHOULD CONTINUE ITS EFFORTS TO IMPROVE THE ACCURACY OF ITS STUDENT LOAN
            DATABASE                                                                                  03/31/97       *           33   13
11-50001    ACCURACY OF STUDENT AID AWARDS CAN BE IMPROVED BY OBTAINING INCOME DATA
             FROM THE INTERNAL REVENUE SERVICE                                                        06/30/97   109,000,000     34   08


OFFICE OF THE CHIEF FINANCIAL OFFICER
11-00333    GREATER EMPHASIS NEEDED TO DEOBLIGATE UNEXPENDED CONTRACT                                 03/31/94    7,500,000      26   17
             FUNDS AND CLOSE OUT CONTRACTS ON TIME
17-40302    FINANCIAL STATEMENT AUDIT: U.S. DEPARTMENT OF EDUCATION                                   08/31/95       *           31   12
             FEDERAL FAMILY EDUCATION LOAN PROGRAM FOR THE YEARS
             ENDED SEPTEMBER 30, 1994 AND 1993
17-48320    FINANCIAL STATEMENT AUDIT OF THE U.S. DEPARTMENT OF EDUCATION                             09/30/95       *           30   20
             WILLIAM D. FORD FEDERAL DIRECT LOAN PROGRAM
17-40303    THE REPORT OF INDEPENDENT ACCOUNTANTS ON THE U.S. DEPARTMENT OF EDUCATION FISCAL          03/31/97       *           33   14
             YEAR 1995 DEPARTMENT-WIDE FINANCIAL STATEMENTS




* Non-monetary findings only
** Management improvement report
               ED/OIG REPORTS ON EDUCATION DEPARTMENT PROGRAMS AND ACTIVITIES
                                                           (April 1, 1998 – September 30, 1998)


Section 5(a)(6) of the Inspector General Act requires a listing of each report completed by OIG during the reporting period. A total of 21 reports were completed by ED/OIG
auditors.. We also issued 17 alternative products, which include action memoranda and management reviews. All of these reports are listed below.
                                                                                                                 QUESTIONED
                                                                                                                     COSTS
                                                                                                                   (excluding       UNSUPPORTED          BETTER USE
ACN            AUDITEE/REPORT TITLE                                                     STATE     ISSUED          unsupported)         COSTS              OF FUNDS

OFFICE OF POSTSECONDARY EDUCATION

A04-70016      REVIEW OF THE DEPARTMENT’S OVERSIGHT OF SCHOOLS PARTICIPATING                DC     SEP-98              *
                IN THE WILLIAM D. FORD FEDERAL DIRECT LOAN PROGRAM

A05-70015      AUDIT OF THE GUARANTOR AND LENDER OVERSIGHT SERVICE’S OVERSIGHT              DC     SEP-98              *
                OF LENDERS PARTICIPATING IN THE FEDERAL FAMILY EDUCATION LOAN
                PROGRAM

A05-80007      THE DEPARTMENT OF EDUCATION HAS AN OPPORTUNITY TO IMPROVE ITS                WI     SEP-98              *
               MANAGEMENT OF THE DEFAULT AVERSION PROGRAM

A05-80011      INSTITUTIONAL PARTICIPATION AND OVERSIGHT SERVICE HAS OPPORTUNITIES          DC    AUG-98               *
                TO IMPROVE THE RECERTIFICATION PROCESS

A05-80024**    REVIEW OF GREAT LAKES’YEAR 2000 READINESS PLANS                              WI     SEP-98              *

A05-80026**    REVIEW OF USA GROUP’S YEAR 2000 READINESS PLANS                              IN     SEP-98              *

A06-70001      NSLDS CAN BE ENHANCED IF LOAN PRINCIPAL AND INTEREST BALANCES                DC     SEP-98              *
                AND STATUSES ARE UPDATED WITH LENDER DATA

A06-70004      APPLICANTS WITH DEFAULTED STUDENT LOANS CONTINUE TO RECEIVE                  DC     JUN-98              *
               FINANCIAL AID

A06-70009      PROFESSIONAL JUDGMENT AT THE UNIVERSITY OF COLORADO                          CO     JUL-98         15,082

A07-70002      INCOME CONTINGENT REPAYMENT: COST ATTRIBUTION AND BORROWER                   MO     JUN-98              *
                STUDIES NECESSARY TO MEET OBJECTIVES OF FEDERAL FINANCIAL
                REPORTING

A07-80005      DONNELLY COLLEGE, STRENGTHENING INSTITUTIONS PROGRAM AUDIT                   KS     JUL-98              *
                PROPOSAL DATED FEBRUARY 20, 1998

A09-70003      R. GONZALEZ MANAGEMENT, INC.’S PROCESSING OF STUDENT FINANCIAL               CA     APR-98              *
               ASSISTANCE TRANSACTIONS AND REPORTS FOR VOCATIONAL SCHOOLS

                                                                                                                 QUESTIONED
                                                                                                                   COSTS
                                                                                                      (excluding    UNSUPPORTED   BETTER USE
ACN           AUDITEE/REPORT TITLE                                                STATE   ISSUED     unsupported)      COSTS       OF FUNDS

OFFICE OF POSTSECONDARY EDUCATION - (continued)

SFA 98-08     CAPITAL CITY TRADE AND TECHNICAL SCHOOL AUSTIN, TEXAS COMPLIANCE      TX    SEP-98           *
               WITH 85 PERCENT RULE

SYS 98-05     DEVELOPMENT OF STUDENT IDENTITY VALIDATIONPROCESS TO BE USED          DC    JUL-98           *
               WITH ELECTRONIC FAFSA AND FAFSA ON THE WEB – OIG PERSPECTIVE

A09-70015     ASSOCIATED TECHNICAL COLLEGE (ATC) ELIGIBILITY OF INSTITUTIONS TO     CA    SEP-98   8,600,000
              TO PARTICIPATE IN TITLE IV PROGRAMS AND OTHER ISSUES

SFA 98-07     UNIVERSITY OF PHOENIX ELIGIBILITY AS A PROPRIETARY INSTITUTION        AZ    JUN-98           *

OFFICE OF ELEMENTARY AND SECONDARY EDUCATION

A04-70012     FOLLOWING TITLE I, PART A AND SECONDARY EDUCATION SCHOOL              DC    JUN-98           *
               VOCATIONAL EDUCATION PROGRAM DOLLARS TO THE SCHOOLS IN
               36 LEAs VISITED

S&L 98-05     CHARTER SCHOOLS ACCOUNTABILITY FOR FEDERAL EDUCATION                  MI    SEP-98           *
               REQUIREMENTS

OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES

A01-60003     AUDIT OF THE MASSACHUSETTS REHABILITATION COMMISSION’S PROVISION      MA    JUN-98           *
               OF TRAINING SERVICES AND CLIENT MONITORING FOR THE PERIOD
               OCTOBER 1, 1994 THROUGH SEPTEMBER 30, 1995

OFFICE OF VOCATIONAL & ADULT EDUCATION

A07-70004     STATE OF NEW MEXICO: SUSTAINABILITY OF THE SCHOOL-TO-WORK             NM    MAY-98           *
               OPPORTUNITIES

S&L 98-03     REGULATIONS OF THE IDENTIFICATION OF LOCAL RECEIPIENT                 DC    APR-98           *
               ADMINISTRATION COSTS COVERED BY BASIC VOCATIONAL EDUCATIONAL
               FUNDS

OFFICE OF EDUCATION RESEARCH & IMPROVEMENT

A03-70007     APPALACHIA EDUCATIONAL LABORATORY, INC.’S ADMINISTRATION              WM    JUN-98       9,569
               OF THE REGIONAL EDUCATIONAL LABORATORY CONTRACTS

OFFICE OF CHIEF FINANCIAL OFFICER

A07-80007     RATHEON E-SYSTEMS DIRECT LOAN SERVICING CONTRACT CLOSE-OUT            VA    JUL-98    923,694           1,858,524
               PROPOSAL DATED FEBRUARY 20, 1998

A11-80013     REVIEW OF GAPS SECURITY                                               DC    SEP-98           *

A17-70002     U.S. DEPARTMENT OF EDUCATION’S FISCAL YEAR 1997 FINANCIAL             DC    JUN-98           *
               STATEMENTS AND ACCOMPANYING NOTES
OFFICE OF CHIEF FINANCIAL OFFICER – (continued)

A17-80005**   SURVEY OF ON-SITE VISITS AND TELEPHONE CALLS TO GAPS USERS            DC    AUG-98           *
               DURING THE WEEK OF JULY 27, 1998
                                                                                                QUESTIONED
                                                                                                    COSTS
                                                                                                  (excluding    UNSUPPORTED   BETTER USE
ACN                    AUDITEE/REPORT TITLE                                    STATE   ISSUED    unsupported)      COSTS       OF FUNDS



L53-80010         FOIA OPERATIONS                                                 DC   JUN-98        *

L53-80003         INTERNATIONAL MERCHANT PURCHASE AUTHORIZATION CARD              DC   SEP-98        *

S&L 98-04         OVERSIGHT OF BUILDINGS ACQUIRED FOR EDUCATIONAL RESEARCH        CA   MAY-98        *
                   WITH FEDERAL FUNDS

SYS 98-01         EDCAPS SECURITY ISSUES                                          DC   MAY-98        *

SYS 98-02         PHYSICAL SAFEGUARDS OVER REFUND CHECKS                          DC   JUN-98        *

SYS 98-03         SERIOUS SECURITY EXPOSURE OVER GAPS USER IDS AND PASSWORDS      DC   JUN-98        *

SYS 98-04         AN ASSESSMENT OF USERS’PERSPECTIVES ON GAPS                     DC   JUL-98        *

SYS 98-06         NEED FOR REINSTATEMENT OF ANNUAL EXPENDITURE CERTIFICATION      DC   SEP-98        *
                   REQUIREMENTS FOR GAPS INITIATED FUNDING REQUESTS

SYS 98-07         GAPS SECURITY ISSUES REQUIRING IMMEDIATE ATTENTION              DC   SEP-98        *

SYS 98-08         SECURITY SCREENING VIOLATIONS RELATED TO OCF/CIO STAFF AND      DC   SEP-09        *
                   CONTRACTORS


OFFICE OF THE DEPUTY SECRETARY

L53-70006         ED’S MANAGEMENT OF ITS COMMON SUPPORT EXPENSE FUND              DC   JUL-98        *

A17-70007         MOVING TOWARDS A RESULTS-ORIENTED ORGANIZATION: A REPORT        DC   SEP-98        *
                   ON ED’S IMPLEMENTATION OF THE RESULTS ACT


* Non-monetary findings only
** Information report
A – Audit
L - Management review
SFA – Student financial assistance action memo
S&L – State and local action memo
SYS – Systems action memo
                             INSPECTOR GENERAL ISSUED REPORTS
                                                        1
                                  WITH QUESTIONED COSTS




                                                NUMBER               QUESTIONED                UNSUPPORTED2

A.       For which no management
         decision has been made by
         the commencement of the
         reporting period (as adjusted)             30               $ 112,883,063             $ 23,111,892

B.       Which were issued during
         the reporting period                        4                   11,406,869                  1,858,524

         Subtotals (A + B)                          34               $ 124,289,932             $ 24,970,416

C.       For which a management
         decision was made during
         the reporting period                         6              $ 16,863,187              $    7,476,091

         (i) Dollar value of
             disallowed costs                                            10,677,664                 7,460,558

         (ii) Dollar value of
              costs not disallowed                                      6,185,523                        15,533

D.       For which no management
         decision has been made by
         the end of the reporting
         period                                      28              $ 107,426,745             $ 17,494,325

E.       For which no management
         decision was made within
         six months of issuance                     17               $ 64,877,158              $ 11,870,503




     1
         None of the audits reported in this table was performed by the Defense Contract Audit Agency.
     2
         Included in questioned costs.
                          INSPECTOR GENERAL ISSUED REPORTS
                             WITH RECOMMENDATIONS FOR
                                BETTER USE OF FUNDS1



                                                                   NUMBER                   DOLLAR VALUE

A. For which no management
   decision has been made by
   the commencement of the
   reporting period (as adjusted)                                        5                          $ 19,006,552

B. Which were issued during
   the reporting period                                                  0                                    0

            Subtotals (A + B)                                            6                          $ 19,006,552

C. For which a management
   decision was made during
   the reporting period                                                  1                              815,000

    (i)     Dollar value of recommendations
            that were agreed to by
            management                                                                                        0

    (ii)    Dollar value of recommendations
            that were not agreed to
            by management                                                                               815,000

D. For which no management
   decision has been made by
   the end of the reporting
   period            4                                       $ 18,191,552

E. For which no management
   decision was made within
   six months of issuance                                                4                          $ 18,191,552




   1
       None of the audits reported in this table were performed by the Defense Contract Audit Agency.
                                 UNRESOLVED REPORTS ISSUED PRIOR TO APRIL 1, 1998

Section 5(a)(10) of the Inspector General Act requires a listing of each report issued before the commencement of the reporting period for which no
management decision has been made by the end of the reporting period.
                                                                                                           TOTAL                   PROJECTED          SEMIANNUAL
REPORT                                                                                     DATE         MONETARY          REASONS MANAGEMENT          REPORT PAGE
NUMBER AUDITEE/TITLE                                                               ST     ISSUED         FINDINGS         OVERDUE   DECISION           NO.   NO.

09-10007   WESTERN TRUCK SCHOOL                                                    CA     09/10/92          8,834,503         01           ***        25     78
07-23545   MISSOURI STATEWIDE                                                      MO     04/01/93          1,048,768         01           ***        **
09-10005   CALIFORNIA STUDENT AID COMMISSION                                       CA     09/10/93         41,100,000         01           ***        27     17
09-33114   STATE OF CALIFORNIA                                                     CA     12/24/93          4,191,032         01           ***        28     18
07-33123   MISSOURI STATEWIDE                                                      MO     03/07/94            187,530         01           ***        **
05-30010   NORTHSTAR GUARANTEE INCORPORATED                                        MN     08/16/94            619,287         01         12/31/98     29     31
04-43134   FLORIDA STATEWIDE                                                       FL     12/05/94            615,996        ***
02-56113   VIRGIN ISLANDS DEPARTMENT OF EDUCATION                                  VI     02/17/95         10,375,000         05            ***       30    17
05-40007   REPORT ON THE TRANSITIONAL GUARANTY AGENCY'S                            MN     06/02/95                  *        ***                      **
            ROLE IN GUARANTY AGENCY TRANSITION
04-53670   FLORIDA STATEWIDE                                                       FL     10/04/95          2,855,402         05           ***
03-60006   REVIEW OF THE COOPERATIVE AGREEMENT FOR THE NATIONAL                    PA     01/28/97                  *         01         11/24/98     34    19
            CENTER FOR ADULT LITERACY AWARDED TO THE UNIVERSITY
            OF PENNSYLVANIA FOR THE PERIOD NOVEMBER 1, 1992
            THROUGH MARCH 31, 1996
04-60147   REVIEW OF SELECTED ASPECTS OF THE KENTUCKY HIGHER EDUCATION             KY     02/18/97          1,263,251         01         12/31/98     34     9
            ASSISTANCE AUTHORITY? S ADMINISTRATION OF THE FEDERAL
            FAMILY EDUCATION LOAN PROGRAM
04-60152   REVIEW OF MONITORING CONTROLS USED TO ENSURE FULFILLMENT OF             DC     06/30/97                 *         ***                      35    17
            TITLE VII BILINGUAL EDUCATION GRANT PROGRAM OBJECTIVES
06-70003   PROFESSIONAL JUDGEMENT AT ST. LOUIS UNIVERSITY                          MO     07/30/97          2,599,709         01            ***       35    14
06-60004   FINANCIAL AID ADMINISTRATORS USE OF PROFESSIONAL JUDGEMENT              DC     07/31/97                  *        ***                      35    13
17-60002   U.S. DEPARTMENT OF EDUCATION RECOMMENDATIONS TO IMPROVE                 DC     08/05/97                  *        ***                      35    19
            MANAGEMENT CONTROLS AND OPERATIONS RESULTING FROM
            MATTERS NOTED DURING OUR FISCAL YEAR 1996 FINANCIAL STATEMENT
            AUDIT
04-70001   STATE AND LOCAL EDUCATION AGENCIES NEED MORE TECHNICAL                  DC     08/20/97                 *          05            ***       35    17
            ASSISTANCE TO TAKE FULL ADVANTAGE OF FLEXIBILITY PROVISIONS
            OF TITLE XIV OF THE IMPROVING AMERICAN? S SCHOOLS ACT
06-60006   ELIMINATING ADVANCE FUNDING WOULD ENHANCE THE INTEGRITY                 DC     08/28/97                 *         ***                      35    13
            OF THE FEDERAL PELL GRANT PROGRAMS
01-60008   THE MASSACHUSETTS CORPORATION FOR EDUCATIONAL                           MA     09/30/97          1,027,690         01         10/31/98     35    16
            TELECOMMUNICATIONS MUST BE A RESTRICTED INDIRECT COST RATE
            FOR CHARGING INDIRECT COSTS TO FEDERAL GRANTS




                                                                                                            TOTAL                      PROJECTED      SEMIANNUAL
REPORT                                                                                  DATE      MONETARY      REASONS MANAGEMENT   REPORT PAGE
NUMBER AUDITEE/TITLE                                                              ST   ISSUED      FINDINGS     OVERDUE  DECISION     NO.   NO.

03-60009    ADMINISTRATION OF THE WILLIAM D. FORD FEDERAL DIRECT LOAN             DC   10/15/97            *      ***                36     12
            PROGRAM BY SCHOOLS
05-70004    STRATEGIC PLANNING AND PERFORMANCE MEASUREMENT FOR                    DC   11/12/97            *      01      12/31/98   36     16
             GUARANTOR AND LENDER OVERSIGHT SERVICE ACTIVITIES CAN
             HELP FOSTER ACHIEVEMENT OF AN EFFICIENT AND EFFECTIVE
             FEDERAL FAMILY EDUCATION LOAN PROGRAM
02-50200    THE PUERTO RICO DEPARTMENT OF EDUCATION MUST INSTITUTE A TIME         PR   11/14/97            *      ***                36     13
             DISTRIBUTION SYSTEM
05-70017    REVIEW OF INDIRECT COSTS CLAIMED OHIO – REHABILITATION SERVICES       OH   11/21/97      538,210      ***                36     16
             COMMISSION FISCAL YEAR 1993 AND 1994
03-70001    AUDIT OF THE DISCTRICT OF COLUMBIA PUBLIC SCHOOLS’                    DC   01/23/98      210,651      05        ***      36     15
             ADMINISTRATION
06-60010    REVIEW OF CHARGES FOR UNEMPLOYMENT COMPENSATION INSURANCE             LA   01/29/98     2,265,212      05       ***      36     18
04-70015    REVIEW OF COSTS INCURRED BY THE UNIVERSITY OF NORTH CAROLINA,         NC   02/25/98     2,300,000     ***                36     15
             GREENSBORO, AND THE SOUTHEASTERN REGIONAL VISION FOR
             EDUCATION UNDER THE U.S. DEPARTMENT OF EDUCATION’S REGIONAL
             EDUCATIONAL LABORATORIES CONTRACT
06-70005    PROFESSIONAL JUDGEMENT AT YALE UNIVERSITY                             CT   03/13/98         5,469      01       ***      36     18
05-80005    CENTRAL STATE UNIVERSITY SUPPORT SERVICES PROGRAM                     OH   03/16/98             *     ***                36     17
09-60009    WESTED’S ADMINISTRATION OF THE REGIONAL EDUCATIONAL LABORATORY        CA   03/31/98     3,031,000      01     10/30/98   36     19
             CONTRACTS
11-70007    THE STATUS OF EDUCATION’S IMPLEMENTATION OF THE CLINGER-              DC   03/31/98                   ***                36     19
             COHEN ACT
11-70011    THE STATUS OF THE U.S. DEPARTMENT OF EDUCATION’S READINESS FOR        DC   03/31/98            *      ***                36     20
             YEAR 2000




NOTES
* Non-monetary findings only
** Not individually written up
*** Information not provided by P.C.


REASON CODES FOR REPORTS OVER SIX MONTHS OLD
01 - Administrative delays
02 - Delay in receiving AUDITEE comments or additional information from AUDITEE
03 - Delay in receiving additional information from non-Federal auditor.
04 - Lack of staff
05 - Cooperative Audit Resolution and Oversight Initiative (CARO) pilot State
                                                         STATISTICAL PROFILE
                                                     APRIL 1, 1998 — SEPTEMBER 30, 1998


                                                                                                                                             Six-Month                    Fiscal
                                                                                                                                                 Period                    Year
                                                                                                                                                 Ending                  Ending
                                                                                                                                                9/30/98                 9/30/98

OIG AUDIT REPORTS ISSUED ...........................................................................................................21                                       38
BQuestioned Costs ................................................................................................................$           9,548,345          $   15,147,397
BUnsupported Costs..............................................................................................................$             1,858,524          $    1,864,004
BRecommendations for Better Use of Funds........................................................................$                                     0          $    2,900,000

OIG AUDIT REPORTS RESOLVED BY PROGRAM MANAGERS ......................... ...................13                                                                               26
BQuestioned Costs Sustained................................................................................................$                  3,217,106          $    6,963,379
BUnsupported Costs Sustained .............................................................................................                    7,460,558          $    9,638,435
BAdditional Disallowances Identified by Program Managers ..............................................$                                              0          $      108,640
BManagement Commitment to Better Use of Funds............................................................$                                            0          $    7,000,000

INVESTIGATIVE CASE ACTIVITY
BCases Opened..........................................................................................................................................150                 341
BCases Closed ...........................................................................................................................................188               462
BCases Active at End of Period ................................................................................................................299                         299
BProsecurorial Decisions ............................................................................................................................67                     98
 BAccepted................................................................................................................................................471               63
 BDeclined ................................................................................................................................................202              35

INVESTIGATION RESULTS
BIndictments/Informations .........................................................................................................................393                       72
BConvictions/Pleas.....................................................................................................................................584                   86
BFines Ordered ......................................................................................................................$      2,412,750            $    2,414,075
BRestitutions Ordered ...........................................................................................................$          5,429,914            $   10,106,977
BRestitution Payments Collected ..........................................................................................$ 29,070,525                           $   29,771,224
BCivil Settlements (number) .................................................................................................                          775       $          200
BCivil Settlements .................................................................................................................$ 34,800,0846                $   35,687,003
BCivil Judgments...................................................................................................................$          250,9167           $    2,266,858

    1
     Includes 6 actions not reported in our last Semiannual Report.
    2
     Includes 3 actions not reported in our last Semiannual Report.
   3
     Includes one action not reported in our last Semiannual Report.
   4
     Includes 3 actions not reported in our last Semiannual Report.
   5
     Includes15 actions nor reported in our last Semiannual Report.
   6
     Includes $98,102 not reported in our last Semiannual Report.
   7
    Includes $118,741 not reported in our last Semiannual Report.
